Report No. D-2010-027            December 8, 2009




 Army's Management of the Operations and Support
  Phase of the Acquisition Process for Body Armor
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ARCENT                        U.S. Army Central
CMO                           Central Management Office
DRMO                          Defense Reutilization Marketing Office
DRMS                          Defense Reutilization Marketing Service
ESAPI                         Enhanced Small Arms Protective Insert
ESBI                          Enhanced Side Ballistic Insert
FRAGO                         Fragmentary Order
IBA                           Interceptor Body Armor
IOTV                          Improved Outer Tactical Vest
MAM                           Maintenance Advisory Message
OCIE                          Organizational Clothing and Individual Equipment
OTV                           Outer Tactical Vest
PEO                           Program Executive Office(r)
SAPI                          Small Arms Protective Insert
                                 INSPECTOR GEN ERAL 

                                DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DRIVE 

                             ARLINGTON, VIRGINIA 22202- 2884 




                                                                          December 8, 2009

MEMORANDUM FOR DISTRIBUTION

SUBJECT: 	 Army's Management of the Operations and Support Phase of the
           Acquisition Process for Body Armor (Report No. 0 -20 I 0-027)

We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly.
U.S. Anny Central comments were not fully responsive. We request additional
comments on Recommendation A.3. In addition, Program Executive Officer Soldier
comments were partially responsive. We request additional comments on
Recommendation 8.1J. We redirected and revised Recommendation A 1 to Program
Executive Officer Soldier based on comments from U.S. Army Deputy Chief of Staff for
Logistics. Therefore, we request that U.S . Army Central and Program Executive Officer
Soldier comment on the reconunendations by January 8, 2010.

If possible, please send a .pdffile containing your comments to audjsao@dodig.mil.
Copies of the management comments must contain the actual signature of the authorizing
official. We are unable to accept the /Signed! symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies e>..1ended to the staff. Please direct questions to me at (703)
604-8905 (DSN 664-8905).




                                    6 tetto
                           Principal Assistant Inspector General
                                       for Auditing
DISTRIBUTION:

COMMANDER, U.S. CENTRAL COMMAND
   COMMANDER, U.S. ARMY CENTRAL
COMMANDER, ARMY MATERIEL COMMAND
DEPUTY CHIEF OF STAFF FOR LOGISTICS, DEPARTMENT OF THE ARMY
COMMANDER, U.S. ARMY INSTALLATION MANAGEMENT COMMAND
COMMANDER, U.S. ARMY TACOM LIFE CYCLE MANAGEMENT COMMAND
PROGRAM EXECUTIVE OFFICER SOLDIER
ADJUTANT GENERAL OF THE U.S. ARMY
DIRECTOR, DEFENSE LOGISTICS AGENCY
   DIRECTOR, DEFENSE REUTILIZATION AND MARKETING SERVICE
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
  Report No. D-2010-027 (Project No. D2009-D000JA-0106.000)                        December 8, 2009


                  Results in Brief: Army’s Management of the
                  Operations and Support Phase of the
                  Acquisition Process for Body Armor
                                                              approximately $7,024,083 from April through June
What We Did                                                   2009.
We determined whether the DOD was effectively
managing the operations and support phase of the              We identified internal control weaknesses with the
acquisition process for body armor components.                Army’s IBA sustainment and disposal processes.
Specifically, we reviewed the storage, shipping,
maintenance, repair, and inspection of DOD body               We Recommend
armor components at 14 sites. We also reviewed the            We recommend that Program Executive Officer
disposal of body armor components at two locations.           (PEO) Soldier, in coordination with Army and
This report is the first in a series of reports on body       Defense Logistics Agency officials, update and
armor life cycle management and focuses on the                disseminate guidance for the maintenance and
U.S. Army’s sustainment and disposal processes.               disposition of IBA. We also recommend that the
                                                              Army direct all facilities responsible for handling
What We Found                                                 IBA to comply with the guidance.
The Army should improve the management of the
operations and support phase of the acquisition               We recommend that PEO Soldier complete the
process for Interceptor Body Armor (IBA). Army                required testing and analysis of the Non Destructive
officials were not properly storing (6 sites), shipping       Testing Equipment and provide a recommendation
(3 sites), and maintaining (2 sites) the Enhanced             to the Army on whether they should require soldiers’
Small Arms Protective Inserts (ESAPI). Army                   ballistic plates to be x-rayed with the equipment.
officials were also not properly maintaining the IBA
vests (3 sites) and did not develop repair guidance           We recommend that DRMS update the DRMS IBA
for the Improved Outer Tactical Vest and ESAPI.               disposition bulletin based on the updated Army IBA
                                                              disposition guidance and require DRMS officials to
The Army’s visual and automated inspection process            comply with the guidance.
for ballistic plates should be improved. Army
officials were not adequately identifying ESAPI with          Management Comments and
external material failures (6 sites) or ESAPI                 Our Responses
specified for return (2 sites) in accordance with             We commend the Army and DRMS for working
guidance, and they were not x-raying ballistic plates         collaboratively and taking actions to improve IBA
as senior Army officials believed. Having a                   life cycle management and ensuring that soldiers
thorough, updated, standardized, and published                have the required level of ballistic protection. We
inspection process should provide increased                   revised and redirected Recommendation A.1 to
assurance that soldiers engaged in combat continue            PEO Soldier. We removed the Adjutant General of
to have the required level of ballistic protection.           the U.S. Army from Recommendation A.3 and
                                                              added Recommendation A.4 to the final report.
Defense Reutilization and Marketing Service                   U.S. Army Central comments were not fully
(DRMS) officials at two locations disposed of                 responsive on Recommendation A.3. PEO Soldier
potentially serviceable IBA because of                        comments on Recommendation B.1.f were not fully
noncompliance and limitations in disposition                  responsive. Management comments on the
guidance. As a result of the audit, DRMS officials            remaining recommendations were responsive. See
returned IBA components to the Army worth                     recommendations table on page ii.

                                                          i
Report No. D-2010-027 (Project No. D2009-D000JA-0106.000)           December 8, 2009

Recommendations Table
Management                      Recommendations             No Additional Comments
                                Requiring Comment           Required
Deputy Chief of Staff for                                   A.1
Logistics, Department of the
Army
Commander, U.S. Army Central    A.3

Deputy Commanding General,                                  A.3, B.3
U.S. Army Installation
Management Command

Commander, TACOM Life Cycle                                 B.2
Management Command
PEO Soldier                     A.1, B.1.f                  A.2, B.1.a-e, C.1

Adjutant General of the U.S.                                A.4
Army
Director, DRMS                                              C.2


Please provide comments by January 8, 2010.




                                             ii
Table of Contents

Introduction	                                                          1


      Objectives                                                       1

      Background                                                       1

      Review of Internal Controls                                      3


Finding A. Interceptor Body Armor Logistics Support	                   5


      Management Actions                                              13 

      Recommendations, Management Comments, and Our Response          13 


Finding B. Inspections of Interceptor Body Armor Ballistic Plates	    17 


      Management Actions                                              24 

      Recommendations, Management Comments, and Our Response          24 


Finding C. Disposal of Interceptor Body Armor 	                       28 


      Management Actions                                              33 

      Recommendations, Management Comments, and Our Response          33 


Appendices

     A. 	Scope and Methodology                                       35 

     B. 	Prior Coverage                                              38 

     C. 	Summary of Audit Results at Sites Visited                   39 

     D. 	Concerns with the Transport of Excess Equipment 

         in Southwest Asia                                           40 

     E. 	Summary of U.S. Central Command Comments and Our Response   43 

Management Comments

      Deputy Chief of Staff for Logistics, Department of the Army	   45 

      U.S. Central Command and U.S. Army Central 	                   46 

      U.S. Army Installation Management Command 	                    58 

      U.S. Army TACOM Life Cycle Management Command                  60 

      Program Executive Officer Soldier                              62 

      Adjutant General of the U.S. Army                              66 

      Defense Reutilization and Marketing Service                    68 

Introduction
Objectives
The overall objective of our audit was to determine whether DOD was effectively
managing the operations and support phase of the acquisition process for body armor
components. Specifically, we reviewed the storage, shipping, maintenance, repair,
inspection, disposal, and accountability of DOD body armor components. This report is
the first in a series of reports on body armor life cycle management and focuses on the
U.S. Army’s sustainment and disposal processes. Please refer to Appendix A for a
discussion of the scope and methodology; Appendix B for prior coverage related to the
audit objectives; Appendix C for a summary of audit results at the sites we visited;
Appendix D for the memorandum we issued to the Director of Logistics, U.S. Central
Command, regarding concerns with the transport of excess equipment in Southwest Asia;
and Appendix E for a summary of the Deputy Director’s comments on the memorandum
and our response.

Background
The Army’s Interceptor Body Armor (IBA) is a modular system that consists of a vest,
ballistic plates, and additional components, such as the collar and groin protector, that
increase the area of ballistic coverage. The system is designed to offer increased
protection to the warfighter by stopping or slowing bullets and fragments and reducing
the number and severity of wounds.

In 1999, IBA consisted of the Outer Tactical Vest (OTV) and the Small Arms Protective
Insert (SAPI). Subsequently, the Army made IBA improvements to add protection
against an additional ballistic threat and provided options for additional components. The
latest improvement to the IBA is the Improved Outer Tactical Vest (IOTV), which
reduced the outer vest’s bulk and weight by more than 3 pounds and added other features,
such as an emergency quick-release mechanism and multiple adjustment points. Figure 1
shows the current IBA configuration, which includes the IOTV, front and back Enhanced
Small Arms Protective Inserts (ESAPI), Enhanced Side Ballistic Inserts (ESBI), and
Deltoid Axillary and Groin Protectors.




                                             1


                                                                                        Deltoid Axillary Protector

                                                                                        Improved Outer Tactical Vest


                                                                                        Enhanced Small Arms Protective
                                                                                        Insert



                                                                                        Enhanced Side Ballistic Insert

                                                                                        Groin Protector




Figure 1. Interceptor Body Armor
Acquisition Life Cycle
DOD Directive 5000.01, “The Defense Acquisition System,” May 12, 2003, provides
policies and procedures for managing the five acquisition life cycle phases. The last
phase, Operations and Support, has two major components—Life Cycle Sustainment and
Disposal. Life Cycle Sustainment includes planning and executing logistical
considerations, such as supply, maintenance, storage, and shipping throughout the
system’s life cycle. At the end of its useful life, when a system becomes unserviceable, it
is demilitarized1 and disposed of in accordance with all legal and regulatory requirements
and policies.

Serviceability
The Defense Logistics Agency provides guidance to DOD Components to assist in the
determination of whether equipment is serviceable or unserviceable. Serviceable
equipment is considered to be new, used, repaired, or reconditioned material issuable for
its intended purpose to customers with or without restrictions. Unserviceable equipment
is material that is beyond the authorized capability or capacity to repair or replace at the
unit and direct support level.2 Material that is past its useful life or has been altered in a
way that does not meet repair standards is also considered unserviceable.

Roles and Responsibilities
The Assistant Secretary of the Army (Acquisition, Logistics, and Technology) is
responsible for developing Army integrated acquisition and logistics strategy policies and
procedures and for maintaining oversight of execution of such policies. The Army
Deputy Chief of Staff (G-4) serves as the principal military advisor to the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology) in the functional area of

1
  Demilitarized is the act of destroying equipment and material to prevent further use of it for its original 

military purpose and applies equally to material in serviceable or unserviceable condition. 

2
  Direct support can be a distribution or maintenance activity that provides supplies and services directly to


units. 



                                                       2

Logistics and the Army Materiel Command provides acquisition, logistics, and
sustainment support for the Army. To purchase and sustain material in Southwest Asia,
these Army offices work closely with the Program Executive Office (PEO) Soldier,
Defense Logistics Agency, Organizational Clothing and Individual Equipment (OCIE)
Central Management Office (CMO), and U.S. Army Central (ARCENT).

PEO Soldier
The Army created PEO Soldier “to develop the best equipment and field it as quickly as
possible.” Within PEO Soldier, Project Manager-Soldier Protection and Individual
Equipment is responsible for developing and fielding high-tech equipment to provide
enhanced force protection including body armor, helmets, and ballistic eye protection.
PEO Soldier is responsible for coordinating and maintaining the IBA logistics strategies
and works with the Defense Logistics Agency for the sustainment of equipment
throughout its life cycle. However, PEO Soldier retains management and oversight of the
Defense Logistic Agency’s sustainment of IBA.

OCIE CMO
At the direction of the Army Materiel Command, the U.S. Army TACOM Life Cycle
Management Command established the OCIE CMO on October 1, 2006, to provide total
asset visibility, enhance lifecycle management, and improve inventory management of
equipment. The OCIE CMO coordinates with the U.S. Army Installation Management
Command to ensure total asset visibility of equipment issued at central issuing facilities.
The U.S. Army Installation Management Command is responsible for central issuing
facilities that store, issue, exchange, and account for clothing and equipment.3 To
improve inventory management, the OCIE CMO uses the Central Issuing Facility
Installation Support Module, an Internet-based accountability system that provides OCIE
CMO access to monitor central issuing facility inventories and shortages, thereby
enhancing its ability to provide oversight and disposition instructions on excess
inventories and shipping between facilities.

ARCENT
ARCENT has overall responsibility for the Army’s operations in Southwest Asia.
ARCENT officials provide theater resources and facilities to perform battle repair and
refurbishment of combat systems. These resources include equipment issuing facilities
and the Theater Retrograde, Kuwait. The Theater Retrograde acts as a theater collection
point for excess equipment and is responsible for ensuring its proper reutilization or
disposal.

Review of Internal Controls
DOD Instruction 5010.40, “Managers Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as


3
 The central issuing facilities are in the process of being transferred from the U.S. Army Installation
Management Command to the Army Materiel Command.


                                                      3

intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses with the Army’s IBA sustainment and disposal processes.

PEO Soldier officials did not update the IBA Logistics Supportability Strategy and
supplemental documentation in accordance with Army acquisition and logistics guidance
to ensure proper storage, shipping, maintenance, repair, or inspection of IBA
components. Implementing the recommendations in Findings A and B should ensure that
IBA guidance addresses the current IBA configuration, that IBA is appropriately
maintained, and that it continues to meet the required level of ballistic protection. In
addition, limitations within PEO Soldier’s disposition guidance led to the disposal of
potentially serviceable body armor components. Recommendations made onsite resulted
in the return of 21,119 potentially serviceable IBA components worth $7,024,083 to the
Army. Recommendations in Finding C should ensure more efficient use of and better
management of Federal resources.

Army officials responsible for storing, maintaining, shipping, and repairing IBA
components were not consistently or properly adhering to procedures in Technical
Manual 10-8400-203-23, “General Repair Procedures for Individual Equipment,”
August 30, 2000 (Technical Manual), or All Army Activities Message (Army
Message) 109/2009, “Inspection, Maintenance and Replacement of ESAPI and ESBI
Used in IOTV,” April 17, 2009. Army officials also did not ensure that appropriate
procedures were effectively and continuously being performed at facilities to identify,
segregate, and ship ESAPI “specified for return”4 as stated in Army Message 292/2008,
“Return of Additional Specified Lots of Enhanced Small Arms Protective Inserts
(ESAPI),” December 6, 2008, and Army Message 027/2009, “Return of Specified Lots of
Enhanced Small Arms Protective Inserts (ESAPI),” January 30, 2009. Implementing the
recommendations in Findings A and B will improve issuing facility officials’ compliance
with IBA guidance and improve the identification and return of ballistic plates identified
in Army Message 027/2009. Defense Reutilization Marketing Service (DRMS) officials
were not in compliance with DRMS guidance to conduct proper inspections of IBA
components prior to disposal. Implementing the recommendations in Finding C should
result in improvements and compliance with guidance to prevent further disposal of
potentially serviceable IBA. We will provide a copy of the report to senior Army and
DRMS officials responsible for IBA internal controls.




4
    The Army issued guidance that requires the identification and return of specified ESAPI lot numbers.


                                                       4


Finding A. Interceptor Body Armor
Logistics Support
The Army should improve the management of the operations and support phase of the
acquisition process for IBA. We visited 14 sites that maintained IBA and found that
Army officials were not properly storing (6 sites), shipping (3 sites), and maintaining
(2 sites) ESAPI. Army officials were also not properly maintaining the IBA vests
(3 sites) and did not develop repair guidance for the IOTV and ESAPI. This occurred
because PEO Soldier officials did not update the IBA Logistics Supportability Strategy
and Technical Manual 10-8400-203-23 in accordance with Army acquisition and logistics
guidance throughout the IBA life cycle. Improper storage, shipping, maintenance, or
repair of ESAPI and the IOTV could reduce the life expectancy of the components or
degrade their ballistic capability.

Army Guidance
Army Regulation 70-1, “Army Acquisition Policy,” December 31, 2003, implements
DOD acquisition guidance for the life cycle management of Army materiel including
individual clothing and equipment. The regulation outlines roles and responsibilities and
provides guidance on the life cycle phases and required documentation associated with
each phase to include the acquisition and logistics support strategies.

Army Regulation 700-127, “Integrated Logistics Support,” November 10, 1999, applies
to all Army materiel and assigns responsibilities for the management of equipment
throughout its life cycle. As stated in the regulation, the Army uses the Integrated
Logistics Support process; which includes planning, developing, acquiring, and
sustaining Army materiel; to implement the mandatory acquisition and logistics
procedures. Army Regulation 700-127 assigns the Integrated Logistics Support Manager
responsibility for developing a supportability strategy that includes all elements of
planning, developing, acquiring, and sustaining Army materiel throughout its life cycle.

The Technical Manual provides standard procedures for maintaining Army individual
equipment. The Technical Manual was updated on August 30, 2000, to include
Chapter 25, “Maintenance of IBA System,” which provides maintenance and repair
guidance for the IBA. The Army has issued additional guidance to reinforce and provide
clarification of the Technical Manual. For example, the TACOM Life Cycle
Management Command issued Maintenance Advisory Message (MAM 09-005),
“Inspection of the Enhanced Small Arms Protective Inserts (ESAPI)/Enhanced Side
Ballistic Inserts (ESBI) used on Improved Outer Tactical Vest (IOTV),” on October
31, 2008. The MAM 09-005 provides guidance on how ESAPI should be stored,
cleaned, and inspected by individuals and issuing facilities. The Army also issued two
Army Messages concerning body armor components—Army Message 027/2009 and
Army Message 109/2009. Army Message 027/2009 requires the identification and return
of specified ESAPI, and Army Message 109/2009 reiterates the storage criteria defined in
MAM 09-005. Finally, the Army required each contractor to develop and provide an
IOTV and OTV Use and Care Manual with each vest. The Use and Care Manuals
explain how users should assemble, clean, and store the OTV, IOTV, SAPI, and ESAPI.


                                            5


IBA Acquisition Strategy
The Operational Requirements Document for body armor was established in 1996 and
was updated in 1998 and 1999. In 1999, the Army developed the, “Logistics
Supportability Strategy for Interceptor Body Armor,” (Logistics Strategy), which
included a requirement for 36,000 sets of IBA for dismounted soldiers. The Army began
fielding the IBA in early 2000. After the attacks of September 11, 2001, the Army
modified the acquisition objective in the Acquisition Strategy to ensure that all mounted
and dismounted soldiers had IBA. The amount of IBA to be fielded increased from the
initial 36,000 to 840,000. In 2005, the Army transitioned from SAPI to ESAPI to provide
protection against an additional ballistic threat and respond to an Operational Needs
Statement for side armor protection. In 2006, ESBI (the side armor protection) and
Deltoid Axillary Protectors (the upper arm and underarm protection) were included in the
IBA. In 2007, the Army began fielding its new vest, the IOTV, to replace the OTV and
updated the IBA acquisition plan to increase the acquisition objective for IBA to 996,000.

IBA Logistic Requirements
We visited 14 sites that store, ship, and maintain IBA of which 11 were body armor
issuing facilities. The other 3 sites—Joint Personal Effects Depot,5 Maryland; Sierra
Army Depot, California; and the Theater Retrograde, Kuwait—do not issue body armor.
At the 14 sites we visited, Army officials were not consistently adhering to, or had not
developed adequate procedures for proper storage, shipping, maintenance, and repair of
ESAPI or the IOTV. Specifically, Army officials at:

            six sites were not adhering to ESAPI storage guidance,
            three sites were not adhering to available ESAPI shipping guidance,
            three sites did not adhere to IOTV or OTV maintenance guidance, and
            two sites were unaware of maintenance guidance for ESAPI.

In addition, because the Army has not updated the Technical Manual to include guidance
for repairing the IOTV and ESAPI, officials at 3 of the 11 issuing facilities were
conducting repairs using OTV guidance. The other eight sites did not conduct any
repairs to the IOTV. See Appendix C for a summary of audit results at the sites visited.

Storage
Army officials were not adhering to ESAPI storage guidance at 6 of the 14 sites we
visited. MAM 09-005 and Army Message 109/2009 state that it is critical that ESAPI be
stored in stacks of the same size plates, strike face facedown, and no more than 10 high,
to avoid damage and to maintain the plates’ effectiveness. At 6 sites, ESAPI were stored
without the strike face facedown and in stacks of up to 50 plates high.




5
  The Joint Personal Effects Depot located at Aberdeen Proving Ground, Maryland, inventories, processes,
and catalogues the personal effects of soldiers and reports to the Adjutant General of the U.S. Army
through the Director, Army Casualty and Mortuary Affairs Operations Center.


                                                   6

IBA issuing facility officials from four of the sites (Joint Base Balad, Iraq; Camp Victory,
Iraq; Fort Bliss, Texas; and the Theater Retrograde, Kuwait) were unaware of the ESAPI
stacking requirement and were storing ESAPI in stacks of more than 10 plates (Figures 2
and 3). In addition, at Fort Bliss and the Theater Retrograde, the plates were not stacked
with the strike face facedown. Officials from the remaining two sites, Bagram Airfield,
Afghanistan, and Fort Bragg, North Carolina, stated that they were aware of the storage
guidance, but were unable to comply due to storage space limitations. As a result,
officials at both sites stored ESAPI in stacks of 40-50 plates (Figure 4).

Proper storage of the ESAPI is critical to avoid damage to the ballistic plates and
ensuring the plates’ ballistic effectiveness. PEO Soldier officials stated that storing
ESAPI in stacks higher than 10 may result in too much pressure on the bottom ballistic
plates, which could cause internal cracking. In addition, if the ballistic plates are stacked
with the strike face faceup instead of facedown (Figures 2 and 3), the weight of the
ballistic plates will not be distributed evenly. Therefore, the corners of the bottom
ballistic plates could be damaged, potentially reducing the ballistic plates’ effectiveness
and life expectancy.




   Figure 2. ESAPI Storage at Fort Bliss              Figure 3. ESAPI Storage at the
                                                      Theater Retrograde




                            Figure 4. ESAPI Storage at
                            Fort Bragg

Shipping
We inspected IBA shipping containers at 3 of the 14 sites and found that ballistic plates
were not properly packed for shipment in accordance with available guidance. Army
units improperly packed and shipped ESAPI to the Theater Retrograde.


                                              7

Theater Retrograde officials were also improperly packing and shipping ESAPI to the
Sierra Army Depot.6 Specifically, ESAPI and other equipment appeared to be thrown
into boxes for shipment (Figure 5). Another Army unit also inappropriately packed and
shipped ESAPI to Fort Bliss by stacking them 25 high with the strike face faceup
(Figure 6). MAM 09-005 states that body armor contractors must pack and ship ESAPI
vertically in corrugated cardboard boxes with foam inserts between each plate. After the
contractors pack the box, they must place the box into another larger box for added
protection. For ESAPI specified for return, Army Message 027/2009 states that Army
officials shipping ESAPI specified for return should package the ballistic plates vertically
in containers with reinforced cardboard and place foam inserts between each plate for
added cushioning and load distribution. The message also states that Army officials
should take all measures possible to ensure that the returned ESAPI are not damaged in
transit. Although the Army has issued specific shipping guidance for new and specified
for return ESAPI, there is no guidance for shipping used ESAPI between facilities.




     Figure 5. ESAPI and SAPI Shipped                 Figure 6. ESAPI Shipped From an
     to Sierra Army Depot From the                    Army Unit to Fort Bliss
     Theater Retrograde

Because issuing facility officials and Army units send equipment to other facilities, it is
important to have guidance for shipping used ballistic plates. Improper shipping of the
ESAPI could result in damaged ballistic plates with reduced ballistic effectiveness.
Without guidance, Army officials cannot ensure that ESAPI are adequately protected in
transit.

Maintenance
Army officials were not consistently adhering to maintenance guidance regarding the use
and care of the IBA vests and ESAPI. Specifically, at 3 of the 14 sites, Army officials
did not properly clean the IOTV or OTV in accordance with applicable guidance. In
addition, we observed and interviewed officials at 2 of the 14 sites who were unaware of
the handling guidance for ESAPI.


6
 OCIE CMO designated Sierra Army Depot as the equipment retrograde for body armor Outside the
Continental United States.



                                                 8

IOTV and OTV Cleaning
Army officials at 3 of the 14 sites we visited were not cleaning the IOTV or OTV in
accordance with applicable guidance. Instead, Army officials were machine washing and
drying the vests, which may cause deterioration and fading. The Use and Care Manual,
the Technical Manual, and the vests themselves state that the IOTV and OTV must be
hand washed only and may not be machine washed or dry cleaned (Figure 7).
Additionally, the Use and Care Manuals and the Technical Manual further state that vests
must be hand washed in lukewarm water with a mild detergent and may not be washed
with yellow soap, detergent, or bleach because those cleaners may fade or deteriorate the
vests.




                             Figure 7. Label Inside the Vest

Army officials at the Joint Personnel Effects Depot, Fort Bragg, and Camp Ali Al Salem,
Kuwait, were machine washing and drying the IOTV and OTV. Officials at the Joint
Personal Effects Depot and Camp Ali Al Salem stated they were unaware that the vests
should be hand washed. Fort Bragg officials stated that they were aware of the hand
washing requirement, but would continue to machine wash and dry the IOTV because
they believe that their contractor adequately cleans the vests without damage. Because
machine washing the IOTV and OTV may cause deterioration and fading (Figures 8 and
9), it is essential that IBA users comply with cleaning instructions. Improper cleaning
could decrease the life expectancy of the vests and render them useless against ballistic
threats.




                                            9


 Figure 8. Faded Vest on the Right                   Figure 9. Entire Box of Faded Vests

Handling of the ESAPI
We interviewed soldiers on ESAPI handling procedures at 2 of the 14 sites we visited.
When we asked the soldiers at Fort Benning, Georgia, and Fort Lewis, Washington, if
they had been instructed not to drop the ESAPI, they stated that they had not received
that instruction, and that they did not think the ballistic plates were fragile because they
can stop a bullet. Yet the front of every ESAPI reads, “Handle With Care” (Figure 10).
Issuing facility officials at Fort Benning stated that they provide a briefing after issuing
IBA to soldiers, but do not specifically state that ESAPI should be handled with care.
Issuing facility officials at Fort Lewis stated that they do not provide a briefing to
soldiers.




                               Figure 10. Front of ESAPI

At Fort Benning, we observed soldiers tossing bags of equipment, including ESAPI, from
a truck onto a cement floor. We also observed soldiers, Government civilians, and
contractors dumping equipment bags containing ESAPI onto a cement floor. Improper
handling of the ESAPI, such as dropping it, could damage the insert. The Army’s IBA
Materiel Fielding Plan, August 13, 1999, states that:

               Care should be taken not to drop the SAPI. The ceramic material used
               in these armor plates is designed to shatter upon projectile impact;
               therefore, dropping them may cause cracks in the ceramic which will
               decrease its protective characteristics.



                                               10

Although ESAPI handling procedures are not documented, PEO Soldier officials stated
that the handling procedures are the same as for SAPI because ESAPI are also ceramic.
If personnel continuously mishandle their ESAPI, the plate could be extensively
damaged, and its ballistic capability decreased. To increase assurance that IBA is
properly maintained, issuing facility officials should provide a briefing to soldiers that
explains the importance of properly handling ballistic plates and reiterates the proper
procedures for cleaning the IOTV and OTV.

Repair
Because the Army has not updated the Technical Manual to include guidance for 

repairing the IOTV and ESAPI, officials at 3 of the 11 issuing facilities were conducting 

repairs using OTV guidance. The other eight sites did not conduct any repairs to the 

IOTV. In addition, none of the issuing facility officials conducted repairs to the ESAPI. 


The Technical Manual contains detailed guidance for repairing the OTV and SAPI. For 

the OTV, the Technical Manual states that a rip or tear may be machine sewn and 

provides detailed information on how to sew the tear depending on the location of the 

tear. The Technical Manual also states which stitch, needle, thread, and bobbin the 

repairing official should use to fix the damage, and the number of stitches per inch of 

damage. For SAPI, the Technical Manual states that the SAPI may be repaired if there is 

a small tear in the outer cover of the plate and the ceramic is not showing. SAPI repairs 

may be performed using adhesive and a patch made of the same outer fabric material. 

Although the Army issued guidance for repairing the OTV and SAPI, they have not 

developed or updated the guidance to include repairs for the IOTV and ESAPI. 


Issuing facility officials at Bagram Airfield, Fort Lewis, and Fort Stewart, Georgia, stated 

that they use the OTV protocol in the Technical Manual to repair the IOTV. The repairs 

they conducted included replacement of IOTV parts and stitching rips or tears. However, 

the IOTV is structured differently than the OTV and includes more soft armor, covers a 

larger surface, includes side plate carriers, and has a pull cord for the emergency release 

of the ESAPI. The repair guidelines in the Technical Manual for the OTV do not address 

these differences. In addition, Army officials at Camp Victory, Fort Stewart, and Sierra 

Army Depot stated that the most frequent damage to the IOTV are tears in the side plate 

carriers. The Technical Manual does not address whether Army officials can repair the 

side plate carriers or the protocol for conducting these repairs. As a result, issuing 

facility officials could improperly repair the IOTV or not repair the IOTV at all. 


Although officials at 3 sites were using OTV guidance to repair the IOTV, none of the 

11 issuing facilities we visited conducted repairs to the ESAPI using SAPI guidance. 

One issuing facility official stated that he did not know if ESAPI could be repaired. 

PEO Soldier should determine whether ESAPI repairs can and should be made and if so, 

include the repair procedures in the Technical Manual. Including these procedures in the 

Technical Manual may extend the life expectancy of the components. 





                                             11


Logistics Supportability Strategy
The Army did not update the IBA Logistics Strategy and Technical Manual in
accordance with Army acquisition and logistics guidance. Army Regulation 70-1 states
that the Logistics Strategy should be updated after each major program event or at a
minimum of every 3 years. The Army has not updated the Logistics Strategy since 1999,
even though they have made several changes to the IBA program. For example, in 2004
the Army increased the amount of IBA to be purchased from 36,000 sets to 840,000 sets
(a 23.3-fold increase). We believe the increase in IBA fielding is justification for an
update to the Logistics Strategy and to the Army’s guidance on the proper storage,
shipping, maintenance, and repair of IBA. In 2005, the Army also increased ballistic
protection from SAPI to ESAPI. While we recognize that the upgrade did not require an
update to the Logistics Strategy, the need for shipping and storage guidance became more
essential as the weight of the ballistic plate increased by approximately 1 pound. In
2007, the Army replaced the OTV with the IOTV and further increased the amount of
IBA purchased to 966,000. Although the IOTV has separate acquisition and logistics
documentation, we believe the upgrade and the increase in IBA purchased were also
reasons to update the IBA Logistics Strategy and Technical Manual.

Army Regulation 700-127 requires that the Logistics Strategy contain detailed
information regarding equipment storage, packaging, handling, transportation, and
facility requirements. The IBA Logistics Strategy states that IBA does not require special
logistics consideration or special or unique packaging, storage, or handling requirements.
However, the Army issued subsequent guidance such as the MAM 09-005, Army
Messages 027/2009 and 109/2009, and the IOTV Use and Care Manual to address special
ESAPI storage requirements, shipping guidance, and handling instructions. The
Logistics Strategy also states that IBA-specific repair and maintenance information is in
the Technical Manual. However, the Army has not updated the Technical Manual to
address repair and maintenance protocol for the IOTV and ESAPI. To ensure proper
storage, shipping, maintenance, and repair of the IBA; the Army should ensure
compliance with acquisition and logistics guidance and update the Logistics Strategy and
supplemental guidance to include detailed information regarding ESAPI and IOTV
logistics considerations.

Maximizing IBA Life Expectancy
Because the Army is not consistently adhering to or has not developed or updated
storage, shipping, maintenance, and repair procedures, the Army cannot ensure that IBA
is being properly maintained and may not be maximizing the life expectancy of the IBA.
The Army also cannot ensure that ballistic protection is not degraded as a result of
inappropriate maintenance. To ensure that the IBA can be properly maintained, the
Army needs to update the Logistic Strategy and the Technical Manual and ensure
awareness and compliance. Updating the guidance will provide increased assurance that
the IBA is properly stored, shipped, maintained, and repaired thus improving the
operations and support phase of the IBA acquisition life cycle.




                                           12


Management Actions
PEO Soldier has taken action to address issues identified during our audit fieldwork. For
example, PEO Soldier officials stated that they are preparing an overarching IBA
Supportability Strategy for the current IBA configuration with annexes specifically
addressing the supportability of the vests and ballistic plates. PEO Soldier officials also
stated that they plan to remove IBA from Technical Manual 10-8400-203-23 and are
developing a new Technical Manual to include storage, shipping, and maintenance
guidance for the current IBA configuration.

While the recommendations in this report will address the current IBA configuration, we
also recognize that PEO Soldier is making continuous improvements to the IBA. As the
next generation of IBA moves forward, it will be equally important that the Army
continues to review and update the Logistics Strategies and supplemental documentation
to ensure proper storage, shipping, maintenance, and repair. Therefore, the
recommendations in this report should also be applied to future IBA configurations.

Recommendations, Management Comments, and Our
Response
Revised, Redirected, and Added Recommendations. We revised and redirected
Recommendation A.1 to Program Executive Officer Soldier based on comments received
from the Deputy Chief of Staff for Logistics, Department of the Army. We removed the
Adjutant General of the U.S. Army from draft Recommendation A.3 and added
Recommendation A.4 because Recommendation A.4 pertains only to the
Adjutant General.

A.1. We recommend that Program Executive Officer Soldier coordinate with the
Assistant Secretary of the Army (Acquisition, Logistics, and Technology) and the
Deputy Chief of Staff for Logistics, Department of the Army, to update and issue
interim Interceptor Body Armor guidance for proper storage, shipping, and
maintenance for the current configuration of body armor until Technical Manual
10-8400-203-23, “General Repair Procedures for Individual Equipment,”
August 30, 2000, is updated or a new Technical Manual is issued.

Deputy Chief of Staff for Logistics Comments
The Deputy Chief of Staff for Logistics, Department of the Army, recommended that the
action be redirected to the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) because PEO Soldier is under their command.

Our Response
As a result of the Deputy Chief of Staff for Logistics comments, we redirected the
recommendation to PEO Soldier to coordinate with both the Assistant Secretary of the
Army (Acquisition, Logistics and Technology) and the Deputy Chief of Staff for
Logistics to update and issue interim guidance. We request that PEO Soldier provide
additional comments in response to the final report.



                                            13

A.2. We recommend that the Program Executive Officer Soldier, in coordination
with the Army Deputy Chief of Staff for Logistics, the TACOM Life Cycle
Management Command, Organizational Clothing and Individual Equipment
Central Management Office, and the Defense Logistics Agency:

       a. Update the, “Logistics Supportability Strategy for Interceptor Body
Armor,” June 2, 1999, to include storage, shipping, and maintenance guidance for
the current Interceptor Body Armor configuration.

       b. Submit updates to the Technical Manual 10-8400-203-23, “General
Repair Procedures for Individual Equipment,” August 30, 2000, or issue a new
Technical Manual that includes storage, shipping, and maintenance guidance for
the current Interceptor Body Armor configuration and disseminate the Technical
Manual to all Army facilities.

       c. Develop repair procedures for the Improved Outer Tactical Vest and
include the new procedures in the Technical Manual referenced in Recommendation
A.2.b.

       d. Determine whether the Enhanced Small Arms Protective Inserts can and
should be repaired and if so, include the new procedures in the Technical Manual
referenced in Recommendation A.2.b.


PEO Soldier Comments
PEO Soldier agreed and stated that an IBA Supportability Strategy is being prepared,
which will address the supportability of the current configuration of body armor
components and the Testing Equipment. PEO Soldier also stated that IBA procedures are
being removed from the current Technical Manual and a new Technical Manual is being
developed for soldier protection equipment. The new Technical Manual will include
storage, shipping, and maintenance guidance for the current IBA configuration and repair
guidance for the OTV. Further, PEO Soldier stated that the Army determined that the
ESAPI cannot be repaired. However, PEO Soldier stated that procedures for replacing
the outer cover of the ESAPI are being developed, and if the Army later determines that
the ESAPI can be repaired, those repair procedures will be included in the new Technical
Manual.

Our Response
PEO Soldier comments on Recommendation A.2 are responsive. Although PEO Soldier
stated in their comments on Recommendation A.2.c that repair procedures are being
prepared for the OTV, we contacted PEO Soldier to clarify that the comments should
read “IOTV.” PEO Soldier confirmed that repair procedures are being developed for the
IOTV. Therefore, no additional comments are required.




                                          14


A.3. We recommend that the Commander, U.S. Army Central and the Deputy
Commanding General, U.S. Army Installation Management Command:

      a. Issue guidance directing all Army sites within your command to ensure
proper procedures are performed when cleaning the Improved Outer Tactical Vest
and Outer Tactical Vest.

        b. Direct all Army sites within your command responsible for the storage,
shipping, maintenance, and repair of Interceptor Body Armor to update or develop
policies and procedures to ensure compliance with the revisions to the Technical
Manual referenced in Recommendation A.2.

        c. Require a briefing at the issuing facilities prior to receipt of Interceptor
Body Armor that informs soldiers of the importance of properly handling the
ballistic plates and reiterates the appropriate procedures for cleaning the Improved
Outer Tactical Vest and Outer Tactical Vest.

ARCENT Comments
The Chief of Staff, U.S. Central Command, forwarded ARCENT comments that agreed
with Recommendation A.3 and stated that ARCENT is working with PEO Soldier to
remedy all areas of concern discussed in this report. An ARCENT message was issued in
April 2009, which provides guidance on IOTV and ESAPI inspection, cleaning, repair,
and storage. Further, the IBA contract was also modified to discontinue IOTV cleaning in
theater. The ARCENT Deputy Commanding General has also directed a 100-percent
screening of soldiers’ ballistic plates stored at the IBA warehouse in Camp Ali Al Salem,
Kuwait, during rest and recuperation leave.

Our Response
ARCENT comments on Recommendation A.3 are not fully responsive. For
Recommendation A.3.a, the ARCENT message issued in April 2009 does not provide
guidance on cleaning the Improved Outer Tactical Vest and Outer Tactical Vest.
ARCENT comments also did not include specific actions planned or taken to address
Recommendations A.3.b and A.3.c. Therefore, we request additional comments on
Recommendation A.3 in response to the final report.

U.S. Army Installation Management Command Comments
The Chief of Staff, U.S. Army Installation Management Command, responding for the
Deputy Commanding General, agreed with the recommendation. The Chief of Staff
stated that the Installation Management Command published guidance to the central
issuing facilities that directed issuing facility officials to follow the IOTV hand washing
procedures, as well as established guidance for IOTV cleaning contracts. The Chief of
Staff also stated that within 30 days of the release of the new Technical Manual, the
Installation Management Command will publish guidance directing the central issuing
facilities to comply with the new Technical Manual. Finally, the Chief of Staff stated
that the Installation Management Command will publish a directive requiring central
issuing facility officials to add body armor cleaning procedures to soldier in-briefings.


                                             15


Our Response
The Chief of Staff, U.S. Army Installation Management Command, comments on
Recommendation A.3 are responsive. Although the Chief of Staff’s comments on
Recommendation A.3.c did not specify that the proper handling of ballistic plates would
also be included in soldier in-briefings, we contacted a U.S. Army Installation
Management Command official to ensure that the briefings would include those
procedures. The U.S. Army Installation Management Command official stated that they
will include the care and handling of ballistic plates in their briefings. Therefore, no
additional comments are required.

A.4. We recommend that the Adjutant General of the U.S. Army issue guidance to
ensure proper procedures are performed when cleaning the Improved Outer
Tactical Vest and Outer Tactical Vest.

Adjutant General of the U.S. Army Comments
The Adjutant General of the U.S. Army agreed and stated that procedures to properly
hand wash body armor were immediately implemented when the DOD IG recommended
changes to their body armor cleaning procedures. The Adjutant General also stated that
standard operating procedures were updated to reflect the change.

Our Response
The Adjutant General of the U.S. Army comments are responsive, and no additional
comments are required.




                                           16


Finding B. Inspections of Interceptor Body
Armor Ballistic Plates
The visual and automated inspection process for ballistic plates should be improved. Of
the 11 issuing facilities we visited, officials at 8 were not adequately identifying ballistic
plates with external material failures or ballistic plates specified for return in accordance
with the Technical Manual, Army Message 292/2008, or Army Message 027/2009. At
the eight issuing facilities, Army officials were not adequately identifying and
segregating ESAPI with external material failures (six sites), identifying and segregating
ESAPI specified for return (two sites), and shipping ESAPI specified for return to the
correct locations (two sites). In addition, Non Destructive Test Equipment (Testing
Equipment) officials in Kuwait were not x-raying deployed soldiers’ ballistic plates with
the Testing Equipment although senior Army officials believed they were doing so.
Instead, Testing Equipment officials x-rayed only about 400 of the 60,000 ESAPI
ballistic plates processed through the warehouse during a 90-day period. This occurred
because

   		 PEO Soldier neither provided updates to the Technical Manual to include the
       transition from SAPI to ESAPI nor developed adequate procedures for conducting
       inspections on ESAPI to determine whether the ballistic plates were serviceable
       or unserviceable;

   		 PEO Soldier and issuing facility officials did not ensure that procedures were
       effectively and continuously being performed at facilities to identify, segregate,
       and ship ESAPI specified for return; and

   		 The Army has not determined whether x-raying ballistic plates with the Testing
       Equipment should be a published requirement and therefore, has not issued
       guidance regarding its limitations and capabilities.

As a result, deployed soldiers could be potentially engaged in combat operations with
ballistic plates that have a degraded ballistic capability.

Inspection Requirements
The IBA Operational Requirements Document recommended that the Army develop an
inspection method to ensure the serviceability of ballistic plates. The Army developed a
visual inspection requirement to detect external failures and incorporated the method in
the Technical Manual. Although visual inspections are important to detect external
failures, such as rips or tears; the Army needed a reliable automated inspection method to
detect microscopic cracks in the ceramic plates. Between calendar year 2004 through
2007, Project Manager-Soldier Protection and Individual Equipment developed an
automated inspection system as an additional method for identifying unserviceable
ballistic plates. The system, with a Mobile Shelter, constitutes the Testing Equipment.
The Testing Equipment uses digital x-ray technology and software to determine whether
the ballistic plates have cracks or other anomalies (Figures 11 and 12).



                                              17

 Figure 11. Interior View of the                    Figure 12. Exterior View of the
 Testing Equipment                                  Testing Equipment

The Testing Equipment Draft Acquisition Strategy states that the equipment inspects
ballistic plates at a rate of at least 240 per hour with an accuracy rate of 95 percent. The
inspection process starts with the material handlers sorting ballistic plates by size and
condition, and then inserting the ballistic plates onto the system’s conveyer belt. As the
ballistic plates pass through the Testing Equipment, an x-ray is taken and compared to the
manufacturer’s standard image to determine if there are differences. If there are cracks or
other anomalies, the Testing Equipment rejects the plate and automatically offloads it
into a discard bin. The material handler then places a “Requires Further Testing” label on
the plate (Figure 13). For ballistic plates that pass the testing, material handlers place a
“Passed Inspection” label on the plate (Figure 14). If the ballistic plates pass the testing,
but have an external material failure, material handlers place an external material failure
“For Training Purposes Only” label on the plate (Figure 15). An external material failure
includes a rip or tear in the ESAPI outer covering.




 Figure 13. Requires           Figure 14. Passed             Figure 15. External
 Further Testing Label         Inspection Label              Material Failure Label

The Army is rapidly expediting the development of the Testing Equipment and has
deployed Testing Equipment systems to Camp Ali Al Salem in September 2008 and
Sierra Army Depot in April 2009 for operational field tests. Current plans include
approximately 14 Testing Equipment systems to be produced and fielded.

Visual Inspections
The visual inspection process for ballistic plates could be improved. Of the 11 issuing
facilities we visited, 8 were not adequately identifying ballistic plates with an external


                                             18


material failure or ballistic plates specified for return in accordance with the Technical
Manual and Army Message 027/2009. See Appendix C for a summary of audit results at
the sites visited.

External Material Failures
Issuing facility officials were not adequately identifying and segregating ballistic plates
with an external material failure at six sites. According to the Technical Manual, issuing
facility officials are to inspect ballistic plates for rips, tears, and surface cracks and ensure
the plate does not flex, make crunching sounds, or have loose pieces that can be heard
inside the plate. If any of the aforementioned conditions exist, the ballistic plates are
unserviceable. Our site visits corresponded with soldiers processing through the facility
at two sites—Fort Bragg and Fort Lewis. Officials at these sites were not performing
visual inspections to identify and segregate unserviceable ballistic plates before issuing
them to soldiers (Figure 16).

Officials at the other four sites were not adequately identifying and segregating ballistic
plates with external material failures prior to placing plates in bins, ready to be issued to
soldiers. For example, Fort Bliss, Fort Stewart, and Fort Benning officials had ESAPI
with rips or tears in the outer cover in bins, ready to be issued to soldiers. Although
issuing facility officials stated that they would have likely re-inspected the ballistic plates
prior to being issued to soldiers, we believe that the ballistic plates should have been
identified and removed prior to being placed in the bin. We also identified multiple
ESAPI at Camp Buehring with external material failures that had Testing Equipment
Passed Inspection labels ready to be issued to soldiers (Figure 17). The issuing facility
official stated that although the ballistic plates had external material failures, the plates
passed the Testing Equipment inspection and therefore, were serviceable. Although the
Testing Equipment will detect cracks within the ceramic plate, it will not detect external
material failures, such as rips or tears in the outer cover. Therefore, issuing facility
officials need to perform visual inspections on all ballistic plates, even if the plates
passed the automated inspection.




                                               19


   Figure 16. ESAPI at Fort                          Figure 17. ESAPI at the IOTV
   Bragg With an External                            Distribution Center With an
   Material Failure                                  External Material Failure and a
                                                     Passed Inspection Label

The Army has issued guidance for conducting visual inspections of ballistic plates to
determine serviceability; however, the guidance is outdated. The Technical Manual
requires issuing facility officials to conduct visual inspections on SAPI. Because the
Army did not update the Technical Manual subsequent to fielding the ESAPI in 2005, the
manual states, “Inspect the overall condition of the Small Arms Protective Insert (SAPI).
Check for rips or tears, surface cracks in the plate itself, or if the plate flexes and
crunching sounds can be heard or loose pieces can be heard inside plate when it is
shaken.” While we understand the SAPI and ESAPI are similar in form and the
inspection criteria may be the same, the Army should update the Technical Manual to
reflect the change and prevent confusion.

The Technical Manual; in addition to the IOTV Use and Care Manual, MAM 09-005, and
Army Message 109/2009; does not contain clear or detailed instructions for conducting
visual inspections of ballistic plates. For example, the IOTV Use and Care Manual states
that a plate is unserviceable if “the outer cover is damaged, exposing the black ceramic
tile material or the composite back face is delaminated and the individual fabric plies are
separating.” We interviewed issuing facility officials and found that they did not
understand the criteria. For example, officials at Fort Bragg stated they were confused by
the word “delaminated” and did not understand what to look for when inspecting for
“individual fabric plies” as stated in the IOTV Use and Care Manual, MAM 09-005, and
Army Message 109/2009. Although officials did understand the wording in the
Technical Manual, it does not provide detailed instructions that would allow issuing
facility officials to more easily detect an external material failure and determine the plate
to be unserviceable. If PEO Soldier updates and clarifies the multiple visual inspection
criteria, issuing facility officials may more easily detect unserviceable ballistic plates.




                                             20


Specified for Return
Issuing facility officials were not conducting visual inspections to identify ballistic plates
specified for return in accordance with Army Message 292/2008 and Army Message
027/2009. Army Message 292/2008 provides instructions for returning a series of lot
numbers to PEO Soldier. Army Message 027/2009 provides similar instructions,
identifies additional ESAPI lot numbers, and states:

               Commanders and CIFS [Central Issuing Facilities], Depots, and any
               other OCIE storage facilities must expeditiously take the following
               actions: (A) Inspect all ESAPI, including ballistic plates worn by
               soldiers and those in storage for the subject contracts and lot numbers.
               (B) Turn in all affected ballistic plates and draw replacement ballistic
               plates in accordance with procedures. (C) Package and ship identified
               ballistic plates and annotate the containers.

Army Message 027/2009 further states that the action should be completed within
30 days of receipt of the message.

Contrary to Army Messages 292/2008 and 027/2009, issuing facility officials at two sites
did not adequately identify and segregate ballistic plates specified for return. The ESAPI
specified for return were in bins, ready to be issued to soldiers at Fort Stewart and Camp
As Sayliyah, Qatar. The specific ESAPI lot number we found at Fort Stewart was
0916-MD2 (Figure 18), which is listed in Army Message 292/2008, and the lot number
we found at Camp As Sayliyah was 1150-MP2S2, which is listed in Army
Message 027/2009. Officials at two additional sites did not ship ESAPI specified for
return to Haymarket, Virginia, even though the shipping directions were provided in both
Army Messages. The ESAPI specified for return at Fort Bliss (Figure 19) were prepared
for shipment to Anniston, Alabama, and Joint Base Balad issuing facility officials stated
that ballistic plates specified for return were sent to the Theater Retrograde, Kuwait. We
also found ESAPI specified for return at the Camp Arifjan Defense Reutilization
Marketing Office (DRMO), Kuwait, marked for disposal although it is not an issuing
facility. The specific ESAPI lot number we found at the DRMO was 0976-M3D2S2
(Figure 20), which is also listed in Army Message 027/2009.




                                                 21


Figure 18. Specified for         Figure 19. Container of          Figure 20. Specified for
Return ESAPI From                Specified for Return             Return ESAPI From
Fort Stewart                     ESAPI From Fort Bliss            Arifjan DRMO

Issuing facility officials did not have procedures in place to effectively and continuously
identify, segregate, and ship ESAPI specified for return. Instead, issuing facility officials
used various procedures at each location to identify ballistic plates specified for return,
including memorizing multiple lists of ESAPI lot numbers or carrying a list of affected
ESAPI lot numbers on clipboards. In addition, some issuing facility officials stated that
they checked their inventory when they received the return message, but they did not
continue to check for the ESAPI specified for return after the 30 days specified in the
Army Message. As of July 2009, the Army identified 40.7 percent of ballistic plates
specified for return from Army Message 027/2009. The low rate of return could be
partially attributed to officials assuming that the message was only in effect for 30 days.
This low return rate, in addition to the problems we identified with procedures at issuing
facilities to identify these ballistic plates, suggests that the risk still exists that a soldier
may receive a plate that may not meet the required level of protection. PEO Soldier and
issuing facility officials need to ensure better coordination and put accountability
mechanisms in place so facilities can more effectively and continuously identify,
segregate, and ship affected ballistic plates in accordance with the Army return message.

Automated Inspections
The automated inspection process for ballistic plates should be improved. Based on
meetings with senior Army officials during the audit of “DoD Testing Requirements for
Body Armor,” January 29, 2009, we expected to find that Testing Equipment officials
were collecting and x-raying 100 percent of soldiers’ ballistic plates during rest and
recuperation leave. Instead, we found during our April 2009 site visit to Camp Ali Al
Salem that Testing Equipment officials had only conducted an exchange experiment from
January through March 2009. During this experiment, soldiers on leave for emergency,
rest and recuperation, or temporary duty had the option of exchanging their ESAPI for
ESAPI that had passed the Testing Equipment inspection from the IBA Warehouse




                                               22


contingency stock.7 Because there was no requirement to x-ray soldiers’ ballistic plates,
Testing Equipment officials could only ask the soldiers to volunteer their ESAPI for
inspection. IBA Warehouse officials stated that soldiers only exchanged about 400 of the
60,000 ESAPI ballistic plates processing through the warehouse during the 90-day
period. While some soldiers volunteered to exchange their ESAPI for ballistic plates that
passed Testing Equipment inspection, it was not a continuing effort nor did it encompass
testing of 100 percent of soldiers’ ballistic plates.

Testing Equipment officials at Camp Ali Al Salem and officials at two issuing facilities
stated that they did not fully understand the limitations of the system. During our site
visit to Camp Ali Al Salem, Testing Equipment officials were x-raying ballistic plates but
not performing adequate visual inspections in compliance with the Technical Manual.
Although they were inspecting the ballistic plates for major defects that could damage the
Testing Equipment prior to inserting the plate on the conveyor belt, they did not conduct
inspections for other external failures, such as rips and tears in the outer cover that would
warrant the plate unserviceable. However, Testing Equipment officials did not yet have
the External Material Failure For Training Purposes Only label, and as a result, we
observed several ballistic plates with an external material failure receive a Passed
Inspection label. In addition, during our site visit to Fort Lewis, we found ballistic plates
with external material failures and Testing Equipment Passed Inspection labels in boxes
received from Sierra Army Depot. Fort Lewis issuing facility officials stated that they
believed that these ballistic plates did not need to be visually inspected because the plates
had a Passed Inspection label and, therefore, were serviceable (Figures 21-22). Although
the Testing Equipment can detect cracks and anomalies in the ceramic, issuing facility
officials still must conduct a visual inspection on the ballistic plates to ensure there is not
an external material failure that would render the plate unserviceable.




Figure 21. ESAPI at Fort Lewis                          Figure 22. ESAPI at Fort Lewis with
with a Passed Inspection Label and                      a Passed Inspection Label and an
an External Material Failure                            External Material Failure
7
 Contingency stock is body armor components in excess of approved levels and retained for possible
unforeseen circumstances.


                                                  23

Although some senior Army and issuing facility officials stated that they were under the
impression that the system was fully operational, the Testing Equipment system is still in
the developmental phase of the acquisition life cycle, and PEO Soldier is working toward
completion of required documentation, to include testing and analysis, to meet its next
milestone. To prevent further confusion, PEO Soldier should issue interim guidance on
the Testing Equipment systems’ limitations and capabilities, including whether
automated and visual inspections are required, until the acquisition strategy and
supplemental documentation is approved and published.

Serviceability Assurance
Both visual and automated inspection methods are critical to ensure that soldiers are not
issued unserviceable ballistic plates. Visual inspections are critical because they can
detect external material failures and ballistic plates specified for return. The Testing
Equipment is also a critical inspection method because it can detect cracks in the ceramic
that are not visible to the human eye. Having a thorough, updated, standardized, and
published inspection process throughout the plate’s life cycle should provide increased
assurance that soldiers engaged in combat operations continue to have the required level
of ballistic protection.

Management Actions
The Army has taken action to address issues identified during our audit fieldwork.
Specifically, ARCENT issued Fragmentary Order (FRAGO) 201820Z in June 2009 for
the mandatory replacement of soldiers’ ESAPI and ESBI in Kuwait during rest and
recuperation leave. The FRAGO further states that to ensure serviceability of the ballistic
plates, ARCENT officials will perform a 100-percent inspection and exchange of ESAPI
and ESBI of soldiers transitioning through Kuwait for rest and recuperation leave,
emergency leave, or any circumstances where soldiers leave and return through the IBA
Warehouse starting June 17, 2009. We commend the Army for taking immediate action
to require an additional mechanism for inspecting ballistic plates. In addition,
PEO Soldier officials drafted a new return message for ESAPI. The message is a
consolidation of previous Army messages for the return of specified ESAPI and states
that the requirement to inspect and return affected ballistic plates will remain in effect
until all ESAPI have been accounted for and that a separate message will be issued when
the requirement is no longer in effect.

Recommendations, Management Comments, and Our
Response
Revised Recommendation. We revised draft Recommendation B.1.d to ensure that all
of the ESAPI specified for return in All Army Activities Messages were included in the
new All Army Activities Message.




                                            24


B.1. We recommend that Program Executive Officer Soldier:

       a. Develop a new Technical Manual or submit updates to Technical Manual
10-8400-203-23, “General Repair Procedures for Individual Equipment,”
August 30, 2000, using the most appropriate means, to the Deputy Chief of Staff for
Logistics, Department of the Army. The Technical Manual should include specific
and clear procedures for detecting external material failures for Enhanced Small
Arms Protective Inserts and Enhanced Side Ballistic Inserts. The Technical Manual
should also clarify that visual inspections are required even if the ballistic plates
have a Testing Equipment Passed Inspection label.

PEO Soldier Comments
PEO Soldier agreed and stated that clear procedures for identifying external material
failures for ESAPI and ESBI will be included in the new Technical Manual. PEO Soldier
also stated that the new Technical Manual will include guidance to clarify that visual
inspections are required, even if the ballistic plates have a Passed Inspection label.

        b. Submit updates to Maintenance Advisory Message 09-005, using the most
appropriate means, to the TACOM Life Cycle Management Command, including
specific and clear procedures for detecting external material failures for Enhanced
Small Arms Protective Inserts and Enhanced Side Ballistic Inserts.

PEO Soldier Comments
PEO Soldier agreed and stated that it will provide updates to the TACOM Life Cycle
Management Command for Maintenance Advisory Message 09-005, which will include
clear procedures for identifying external material failures on ballistic plates.

       c. Clarify guidance for inspecting the Enhanced Small Arms Protective
Inserts and Enhanced Side Ballistic Inserts in the Improved Outer Tactical Vest Use
and Care Manual, Maintenance Advisory Message 09-005, and All Army Activities
Message 109/2009 so that they are congruent with the updates in the Technical
Manual.

PEO Soldier Comments
PEO Soldier agreed and stated that it will update all ESAPI and ESBI guidance to
coincide with the procedures in the new Technical Manual.

       d. Provide input to Headquarters, Department of the Army, to issue an All
Army Activities Message that establishes a recurring requirement to return all
Enhanced Small Arms Protective Inserts specified for return that are in All Army
Activities Messages.




                                          25


PEO Soldier Comments
PEO Soldier agreed and stated that it will provide input to Headquarters, Department of
the Army, to issue an All Army Activities Message ensuring a recurring requirement to
return ballistic inserts identified for return.

        e. Complete the required testing and analysis of the Non Destructive Testing
Equipment and provide a recommendation to the Headquarters, Department of the
Army, on whether the Army should require that ballistic plates be x-rayed. If the
Department of the Army determines that use of the equipment should be a
requirement, Program Executive Officer Soldier should develop guidance including
the equipment’s capabilities and limitations, and how often and which ballistic
plates should be x-rayed.

PEO Soldier Comments
PEO Soldier agreed and stated that the Army continuously tests and evaluates the
capabilities of the Testing Equipment and that PEO Soldier will make a recommendation
to Headquarters, Department of the Army, to x-ray all serviceable ballistic plates with the
Testing Equipment. PEO Solder also stated that if the Department of the Army decides
that the use of the Testing Equipment should be a requirement, PEO Soldier will develop
guidance including the equipments’ capabilities and limitations, and how often and which
ballistic plates should be x-rayed.

        f. Develop interim guidance on the Non Destructive Testing Equipment
limitations and capabilities, including whether automated and visual inspections are
required, until the acquisition strategy and supplemental documentation is
published and approved.

PEO Soldier Comments
PEO Soldier agreed and stated that the Army Test and Evaluation Command issued a
capability and limitations report for the Testing Equipment on May 7, 2009. The report
stated that the Testing Equipment is capable of evaluating serviceability of an undamaged
plate at a success rate of 99.7 percent and of rejecting a damaged plate at a success rate of
99.9 percent. The limitation of the Testing Equipment is that the equipment is not
configured to analyze the outer one-half inch of the ballistic plate. Further, PEO Soldier
stated that their guidance to the Testing Equipment inspection teams is to use automated
and visual inspections when evaluating the ballistic plates.

Our Response
PEO Soldier comments on Recommendation B.1.a through B.1.e are responsive, and no
additional comments are required. PEO Soldier comments on Recommendation B.1.f are
nonresponsive. PEO Soldier did not state that interim guidance will be developed on the
Testing Equipment’s limitations and capabilities, or whether automated and visual
inspections will be required by issuing facility officials. Although the Army issued a
capability and limitations report for the Testing Equipment, the information still needs to
be communicated to issuing facility officials. As discussed in Finding B, issuing facility


                                             26


officials were not always conducting visual inspections on ballistic plates if they passed
the automated inspection. While we acknowledge that PEO Soldier provides guidance to
the Testing Equipment inspection teams, issuing facility officials also need to be aware of
the visual inspection requirement whether or not the ballistic plates have a Passed
Inspection label. Even though PEO Soldier stated in their response to
Recommendation B.1.a that the new Technical Manual will clarify that visual inspections
are always required, issuing interim guidance on the Testing Equipment’s limitations and
capabilities is still necessary until the manual is published. Therefore, we request
additional comments on Recommendations B.1.f in response to the final report.

B.2. We recommend that Commander, TACOM Life Cycle Management
Command issue the revised Maintenance Advisory Message 09-005 once the
Program Executive Officer Soldier provides clarification and updates on the
inspection process.

TACOM Life Cycle Management Command Comments
The Deputy Chief of Staff, TACOM Life Cycle Management Command, responding for
the Commander, agreed and stated that once PEO Soldier provides clarification and
updates to the inspection process, the TACOM Life Cycle Management Command
Integrated Logistics Support Center will issue a revised Maintenance Advisory
Message 09-005.

Our Response
The Deputy Chief of Staff, TACOM Life Cycle Management Command comments are
responsive, and no additional comments are required.

B.3 We recommend that the Deputy Commanding General, U.S. Army Installation
Management Command, direct issuing facilities to comply with the All Army
Activities Message in Recommendation B.1.d. by developing, publishing, and
implementing effective procedures to consistently identify ballistic plates specified
for return.

U.S. Army Installation Management Command Comments
The Chief of Staff, U.S. Army Installation Management Command, responding for the
Deputy Commanding General agreed and stated that he will direct the issuing facilities to
comply with the new All Army Activities Message once released, which will establish a
recurring requirement to return specified lots of ballistic plates.

Our Response
The Chief of Staff, U.S. Army Installation Command, comments are responsive, and no
additional comments are required.




                                            27


Finding C. Disposal of Interceptor Body
Armor
DRMS officials at Central Demil Center, Anniston, Alabama (Anniston), and the DRMO,
Camp Arifjan, Kuwait (Arifjan), disposed of potentially serviceable IBA components.
This occurred because of the restrictive time frame prescribed in PEO Soldier
memorandum, “Disposition Instructions for the United States Army Interceptor Body
Armor (IBA) Outer Tactical Vests (OTV), Ballistic Protective Inserts, and Their
Components,” and “DRMS Demil Bulletin FY 08-001 for Body Armor,” which allows
for the destruction of potentially serviceable IBA components. The destruction of
potentially serviceable IBA components also occurred because DRMS officials did not
comply with DRMS Instruction 4160.14, “Operating Instructions for Disposition
Management,” and challenge the condition code when officials believed that the IBA
components were serviceable. Revising the restrictive time frame and complying with
DRMS guidance should ensure more efficient use of and improved management of
Federal resources. During our Arifjan site visit on April 13, 2009, we made onsite
recommendations that DRMS officials take immediate action to comply with DRMS
Bulletin 08-001 to conduct inspections of IBA components and notify OCIE CMO for
disposition instructions. As a result of our recommendations, DRMS officials returned
21,119 potentially serviceable IBA components to the Army from April 2009 through
June 2009. Those serviceable IBA components were worth $7,024,083.

DRMS
DRMS is a subordinate component of the Defense Logistics Agency and is responsible
for the reutilization, transfer, donation, sale, and disposal of DOD excess equipment.
Within DRMS, the DRMOs and Central Demil Centers are responsible for inspecting,
coding, and disposing excess equipment. There are three facilities approved to inspect,
code, and destroy IBA components. Anniston is the preferred site within the Continental
United States approved to dispose of IBA, and Arifjan is the only site approved to destroy
IBA in Southwest Asia.8

Disposition Guidance
PEO Soldier and DRMS have issued guidance concerning IBA inspection, notification,
and disposition. On September 7, 2007, PEO Soldier issued memorandum, “Disposition
Instructions for the United States Army Interceptor Body Armor (IBA) Outer Tactical
Vests (OTV), Ballistic Protective Inserts, and Their Components,” to DRMS. The
memorandum states that IBA components determined to be unserviceable in accordance
with the Technical Manual should be destroyed. For potentially serviceable IBA
components, the memorandum requests that DRMS officials coordinate with the OCIE
CMO for possible redistribution. Once notified of potentially serviceable body armor,
the OCIE CMO has 2 weeks to provide disposition instructions, or the IBA components
will be demilitarized. The memorandum was in effect until September 2009 unless
renewed or superseded. On September 12, 2007, G-4 and PEO Soldier issued a message,

8
    The other DRMS facility is located in Kaiserslautern, Germany.


                                                     28

“Turn-in of Serviceable Interceptor Body Armor (IBA),” that directed issuing facilities,
supply support activities, and units to immediately cease sending serviceable IBA
components to DRMO facilities. Instead, the components should be inspected for
serviceability in accordance with the Technical Manual or the applicable Use and Care
Manual and only those components that are deemed unserviceable should be sent to a
DRMO facility.

DRMS Instruction 4160.14, “Operating Instructions for Disposition Management,”
May 12, 2008, provides specific guidance on inspecting, processing, and disposing of
DOD excess equipment. If the item appears to be incorrectly coded during inspection,
the instruction states that DRMS officials should challenge the condition code with the
generating activity9 and document any changes to the condition code. In addition,
officials should inspect and challenge items that are in original packaging as well as
unopened containers coded unserviceable. If the generating activity repeatedly turns in
equipment with the incorrect code, DRMS officials also have the authority to refuse the
activity’s equipment.

“DRMS Demil Bulletin FY 08-001 for Body Armor,” August 4, 2008, reiterates the
PEO Soldier memorandum dated September 7, 2007, and provides DRMS officials with
standard operating procedures for the receipt, reutilization, and disposal of body armor.
The Bulletin states that DRMS officials should inspect IBA components to determine
serviceability. If the components appear serviceable, a DRMS official should request
disposition instructions from OCIE CMO. The OCIE CMO has 2 weeks to provide
disposition instructions or if they request, 60 days to conduct a visual inspection. If the
disposition instructions are not provided within the specified time frame, the DRMS
official is authorized to dispose of the IBA.

DRMS Facilities
We visited two DRMS facilities approved to demilitarize IBA components, Anniston and
Arifjan. DRMS officials at both sites destroyed potentially serviceable IBA components,
which could have been issued to soldiers for operational deployment or training.

Anniston
At Anniston, we did not observe the actual inspection process; however, we verified that
Anniston DRMS officials had segregated potentially serviceable IBA components for
potential redistribution and unserviceable components for disposal. Anniston DRMS
officials stated that once they receive IBA components, the components are inspected in
accordance with DRMS Bulletin FY 08-001. Officials further stated that it is necessary
to conduct inspections on all IBA components regardless of the condition code assigned
because the condition code might be inaccurate. For example, IBA components could be
marked with a serviceable condition code and during inspection the Anniston DRMS



9
 The generating activity is the entity that sent the items to the DRMS with a serviceable or unserviceable
condition code.


                                                    29

officials may determine the components to be unserviceable. Likewise, IBA components
marked with an unserviceable condition code may be determined serviceable during
inspection.

Compliance with Disposition Instructions
Anniston DRMS officials conducted inspections on IBA components but did not
challenge the condition codes provided by the generating activity when they believed the
components were serviceable in accordance with DRMS guidance. DRMS
Instruction 4160.14 states that officials should view items in their original package and
unopened containers that were coded as unserviceable “with doubt,” challenge the code
with the generating activity, and document any changes to the code. Although Anniston
DRMS officials segregated potentially serviceable IBA components, they did not
challenge the condition code with the generating activity when they believed potentially
serviceable components were marked with an unserviceable condition code. Therefore,
the list of potentially serviceable IBA components sent to OCIE CMO were still marked
with an unserviceable condition code. As a result, when OCIE CMO reviewed the list of
components provided by Anniston DRMS officials, OCIE CMO officials believed the
components were unserviceable and provided disposition instructions to destroy the
components. Anniston DRMS officials also stated that they disposed of the potentially
serviceable IBA components because OCIE CMO did not provide disposition instructions
within the specified time frame.

Restrictive Time Frame in Disposition Guidance
From May 14, 2008, through May 18, 2009, Anniston DRMS officials provided
notification of potentially serviceable IBA components to the OCIE CMO on seven
occasions. DRMS Bulletin 08-001 states that the OCIE CMO has 2 weeks to provide
disposition instructions. At the end of this period, IBA components should be destroyed.
According to Anniston DRMS officials, on two occasions the Army OCIE CMO did not
reply with disposition instructions within the required time frame. Therefore, Anniston
DRMS officials reported that they disposed of approximately 9,169 potentially
serviceable IBA components. Of those components, 646 were SAPI and were worth
approximately $321,900.10 Although soldiers can no longer deploy to Southwest Asia
with SAPI, U.S. Forces Command message “FORSCOM Policy on the Fielding and
Management of Interceptor Body Armor,” February 4, 2008, states that soldiers can use
SAPI for training purposes. The availability and use of SAPI prepares the soldier for
equipment use during Southwest Asia deployments and prevents any potential damage to
ESAPI during training.

On the other 5 occasions, OCIE CMO officials provided disposition instructions on
34,855 potentially serviceable IBA components. Of those IBA components, OCIE CMO
officials redistributed 6,809 and Anniston DRMS officials destroyed the other 28,046.
According to OCIE CMO officials, the destroyed components were either obsolete or not
needed. However, we reviewed the list of 28,046 destroyed components and questioned

10
  The remaining potentially serviceable IBA components were mainly subcomponents of the OTV, such as
the outer shell, groin protectors, deltoid protectors, and soft ballistic panels.


                                                30

the destruction of 11,074 SAPI and 30 ESAPI worth approximately $4,279,000 and
$17,100, respectively. Revising the restrictive time frame in the Army and DRMS
disposition guidance should ensure potentially serviceable IBA components are reused by
the Army to the maximum extent practical and destroyed only when directed by the
Army.

Arifjan
Arifjan DRMS officials were not conducting inspections in accordance with DRMS
Bulletin FY 08-001, and instead were destroying all IBA components marked with an
unserviceable condition code upon receipt. We toured the disposal yard and observed a
demonstration of the disposal process. During our tour, we identified 83 containers
storing IBA components (Figure 23). We inspected the IBA components and found
many that appeared to be serviceable, including unopened boxes of new ESAPI, ESBI,
ESBI carriers (Figure 24), and plates that were specified for return11 (Figure 25).




 Figure 23. Tri-Walls at           Figure 24. New ESBI and            Figure 25. ESAPI with a
 Arifjan                           Carrier                            Lot Number Specified for
                                                                      Return

Although Arifjan DRMS officials acknowledged that some IBA components were still in
the original packaging, they did not inspect the components as required by DRMS
Bulletin FY 08-001 and DRMS Instruction 4160.14 nor did they challenge the condition
code as required by DRMS Instruction 4160.14. Instead, Arifjan DRMS officials
destroyed all IBA components. Arifjan DRMS officials stated that they also received
multiple containers of excess IBA components, including potentially serviceable IBA
components in February 2008. Arifjan DRMS officials contacted OCIE CMO to
determine the disposition of the IBA components and returned approximately
$11,206,000 of IBA components for redistribution at the direction of OCIE CMO.
However, Arifjan DRMS officials explained that they viewed the requirements to inspect
the components and contact OCIE CMO when the components were potentially

11
  Plates with specified lot numbers were designated for return in Army Message 027/2009 and should be
shipped to PEO Soldier.


                                                  31

serviceable as a one-time request due to excess IBA components received in February
2008. Since then, all IBA components received at Arifjan have been destroyed.
Based on DRMS Arifjan data,12 236,229 IBA components worth $31,393,476, were
disposed of during 2008. The destroyed components included 3,569 ESAPI, 8,119 ESBI,
and 1,673 SAPI worth $2,178,770, $2,116,016, and $758,967, respectively. Any of these
components could have been serviceable because Arifjan DRMS officials did not conduct
inspections on these IBA components. Although we do not have evidence that the
components were serviceable (because all were destroyed), we are confident that some
components were serviceable, based on the results of our site visit. Had Arifjan DRMS
officials conducted inspections prior to disposal and contacted OCIE CMO officials for
disposition instructions, the Army could have likely redistributed some of these
components to soldiers for deployment or training purposes.

We made immediate onsite recommendations that Arifjan DRMS officials not destroy the
83 containers of IBA components, but to contact OCIE CMO for disposition instructions
in accordance with DRMS Bulletin FY 08-001. We also recommended that Arifjan
DRMS officials initiate inspections of all subsequent IBA components received and, if
deemed serviceable, notify OCIE CMO officials for proper disposition. As a result of our
recommendation, from April 2009 through June 2009, Arifjan DRMS officials returned
21,119 potentially serviceable IBA components worth $7,024,083 to the Army.

Improving IBA Accountability
PEO Soldier and DRMS guidance allows for the destruction of serviceable IBA
components if the OCIE CMO official does not respond to DRMS notification within
2 weeks. We understand that establishing a time frame for notification or disposal may
be important to prevent DRMS facilities from becoming storage facilities; however, the
restrictive time frame in the guidance led to the destruction of serviceable IBA
components. Office of Management and Budget Circular A-123, “Management’s
Responsibility of Internal Controls,” December 21, 2004, states that Federal employees
are accountable for ensuring that resources are used efficiently and effectively with
minimal potential for waste and mismanagement. Revising the restrictive time frame and
ensuring compliance with the guidance will help to ensure more efficient use of and
better management of Federal resources.

To prevent further waste and mismanagement, the Army should also consider designating
and requiring an authorized Government official to conduct a physical inspection and
provide disposition instructions subsequent to DRMS officials conducting their initial
inspections and notifying OCIE CMO officials. If DRMS officials identify potentially
serviceable IBA components, the Government official could provide further disposition
instructions, depending on the component. For example, the Government official could
send the potentially serviceable ballistic plates to a Testing Equipment facility for further
inspection or store the plates at a temporary facility until additional testing can be
performed.

12
 We did not assess the reliability of computer-processed data provided to us by DRMS officials. See
Appendix A for an explanation.


                                                  32

Management Actions
Subsequent to our Arifjan site visit, PEO Soldier officials inspected and recovered an
estimated 900 potentially serviceable small ESAPI. PEO Soldier officials stated that they
planned to x-ray the ballistic plates with the Testing Equipment and once x-rayed, the
plates could be redistributed to address the Army’s shortage of small ESAPI.
PEO Soldier officials also recovered additional IBA components and plan to conduct
testing to determine the serviceability of those components.

DRMS officials stated that Arifjan procedures were revised as a result of our site visit.
Specifically, Arifjan officials ceased destroying all ballistic plates and began shipping
them, regardless of condition code, to Camp Ali Al Salem for testing, evaluation, and
ultimate transfer or disposal. In addition, all other IBA components, regardless of
condition code, are being held until they are inspected by PEO Soldier.

Recommendations, Management Comments, and Our
Response
C.1. We recommend that the Program Executive Officer Soldier coordinate with
the:
      a. Defense Reutilization and Marketing Service and Organizational Clothing
and Individual Equipment Central Management Office to revise and reissue
memorandum, “Disposition Instructions for the United States Army Interceptor
Body Armor (IBA) Outer Tactical Vests (OTV), Ballistic Protective Inserts, and
Their Components,” September 7, 2007.

       b. Department of the Army to determine whether the applicable guidance
should be published as a DOD or Army regulation.

PEO Soldier Comments
PEO Soldier agreed and stated that coordination will occur with DRMS and OCIE CMO
to revise and reissue memorandum, “Disposition Instructions for the United States Army
Interceptor Body Armor (IBA) Outer Tactical Vests (OTV), Ballistic Protective Inserts,
and Their Components,” September 7, 2007, and determine whether the guidance should
be published as a regulation.

Our Response
PEO Soldier are responsive, and no additional comments are required.

DRMS Comments
Although not required to comment, the Director, DRMS stated that DRMS will
coordinate with the Army to revise the September 7, 2007, disposition instruction, which
should incorporate statements in Finding C of this report. Specifically, the Director,
DRMS, stated that the disposition instructions should include input from the Army on
whether to designate an authorized Government official to conduct physical inspections




                                             33


of, and provide disposition instructions for, potentially serviceable IBA components
subsequent to DRMS inspection.

Our Response
Although designating a Government official to conduct physical inspections and provide
on-site disposition instructions would aid in identifying potentially serviceable IBA
components, PEO Soldier, in close coordination with DRMS and OCIE CMO, is best
suited to determine the most appropriate course of action to ensure proper disposition.

C.2. We recommend that the Director, Defense Reutilization and Marketing
Service:

       a. Update, “DRMS Demil Bulletin FY 08-001 for Body Armor,” August 4,
2008, to reflect changes in the memorandum referenced in Recommendation C.1.a.

       b. Require Defense Reutilization and Marketing Offices and Central Demil
Centers to comply with the Defense Reutilization and Marketing Service
Instruction 4160.14, “Operating Instructions for Disposition Management,” May 12,
2008, requirement to challenge the condition codes and the updated Defense
Reutilization and Marketing Service Demil Bulletin referenced in C.2.a.

DRMS Comments
The Director, DRMS, agreed and stated that DRMS will revise the August 4, 2008,
Demil Bulletin once DRMS receives guidance from the Army. The Director also
expressed concerns about the ability of DRMO employees to determine the proper
condition code of equipment that requires specialized testing. The Director asserted that
DRMS will coordinate with PEO Soldier to determine whether material should be
referred to PEO Soldier or processed for destruction. For nontechnical items, the
Director stated that the requirements of DoD Manual 4160.21-M and DRMS Instruction
4160.14 will be stressed to the DRMS field sites, specifically regarding the challenging
of condition codes if they appear to be incorrect.

Our Response
The Director, DRMS, comments are responsive. Although we agree that DRMO
employees may not be able to determine the proper condition code for items that require
specialized testing, both visual and automated inspection methods are critical in
determining whether a ballistic plate is serviceable. The visual inspection method is
nontechnical in nature and is used to detect whether a ballistic plate has an external
material failure. The automated inspection method requires the use of Testing Equipment
to detect cracks in the ceramic that are not visible to the human eye. Once a DRMO
employee conducts a visual inspection and determines that a ballistic plate has no
external material failures, the DRMO employee could send the ballistic plate to a Testing
Equipment facility for an automated inspection to determine whether the plate is
serviceable. No additional comments are required.




                                           34

Appendix A. Scope and Methodology
We conducted this performance audit from January 2009 through September 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To accomplish our objectives, we coordinated with or interviewed officials from the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics;
Joint Chiefs of Staff; Army Deputy Chief of Staff for Logistics (G-4); CENTCOM;
ARCENT; Multi-National Force-Iraq; Multi-National Corps-Iraq; Combined Joint Task
Force 101-Afghanistan; Army Materiel Command; U.S. Army TACOM Life Cycle
Management Command; U.S. Army Installation Management Command; OCIE CMO;
Army Human Resources Command; PEO Soldier; Defense Logistics Agency; Defense
Supply Center Philadelphia; Anniston Central Demilitarization Center; Camp Arifjan and
Bagram Air Base DRMO; Defense Contracting Management Agency; and sites listed in
Appendix C. We obtained and reviewed IBA-specific Military Standards;
DOD directives, regulations, instructions, and manuals; Maintenance Advisory
Messages; Army Messages; Fragmentary Orders; standard operating procedures; and
IBA Acquisition and Logistics documentation. Additionally, we observed IBA storage,
shipping, maintenance, repair, and inspection procedures and tested those procedures
where applicable at the 14 sites listed in Appendix C. We also observed the receipt and
reutilization of IBA at the Anniston Central Demilitarization Center and observed the
demilitarization of IBA at the Camp Arifjan DRMO.

We coordinated with the Army Audit Agency and DOD IG Audit, Acquisition and
Contract Management and Readiness, Operations, and Support Directorate personnel
who were conducting concurrent audits that involved reviewing IBA.

Although the IBA has several configurations, we limited the scope of our audit primarily
to the sustainment of the IOTV and ESAPI supporting U.S. Forces in Iraq and
Afghanistan. While we recognize that the IOTV is still being fielded in locations other
than Iraq and Afghanistan, we considered it necessary to include the sustainment of
IOTV in our fieldwork because the Iraq and Afghanistan fielding was complete. We also
performed a limited review of property accountability at the sites we visited. Our
decision to perform a limited review was based in part on the Army’s acknowledgement
that it needed better IBA property accountability. However, until the Army accounts for
IBA on every soldier’s individual clothing record, these actions will not be complete.

We did not assess the reliability of computer-processed data provided to us by DRMS
officials in the Defense Reutilization and Marketing Automated Information System and
Management Information Distribution and Access System. See Use of Computer-
Processed Data for additional explanation.



                                           35

Use of Computer-Processed Data
To perform this audit, we conducted a limited assessment of computer-processed data
used to support the disposition of potentially serviceable IBA components at DRMO
Arifjan and Anniston Demil Center.

To determine the number and dollar amount of potentially serviceable IBA components
that DRMO Arifjan officials disposed of in 2008 and redistributed in FY 2008 through
third quarter FY 2009, we relied on data from DRMS officials at Battle Creek, Michigan
(DRMS Headquarters) and Arifjan. DRMS officials from both locations generated the
data from the Defense Reutilization and Marketing Automated Information System and
the Management Information Distribution and Access System. The Defense
Reutilization and Marketing Automated Information System is a property accounting and
inventory management system designed to manage personal property through disposal.
The Management Information Distribution and Access System is a single access point to
the Defense Reutilization and Marketing Automated Information System inventory,
which contains historical (archived) information.

We reviewed the data provided by DRMS officials and extracted ESAPI, ESBI, and
SAPI components to determine the number and dollar amount of those components
disposed of in 2008. We requested data on the same components, in addition to ESBI
carriers, from DRMS officials to determine the number and dollar amount redistributed in
FY 2008 through third quarter FY 2009. DRMS officials extracted the requested data
from the Management Information Distribution and Access System and provided us the
total number and cost of components redistributed. We did not conduct additional testing
on the data because the extracted IBA components were disposed of or redistributed and
further testing would have provided minimal value as the components can not be
recovered or identified. Therefore, we included the reliability of this data as a scope
limitation.

To determine the number of potentially serviceable IBA components redistributed at the
direction of OCIE CMO or disposed of at Anniston from May 14, 2008, to May 18, 2009,
we requested and reviewed e-mail correspondence and Excel spreadsheets of potentially
serviceable IBA components from Anniston and OCIE CMO officials. We compared
e-mail correspondence to determine the number of occasions OCIE CMO did not provide
disposition instructions within the required time frame. We also reviewed e-mail
correspondence and Excel spreadsheets provided by Anniston and OCIE CMO officials
which contained the amount of IBA components disposed of or redistributed. We
corroborated the data and determined that the documents provided reasonable assurance
as to the total number of components redistributed by OCIE CMO or disposed of at
Anniston during the time frame reviewed.

To determine the dollar amounts of potentially serviceable IBA components redistributed
by OCIE CMO or disposed of at Anniston from May 14, 2008, to May 18, 2009, we
modified the Excel spreadsheets by adding the unit prices to the IBA components listed.




                                          36


We obtained and compared unit pricing from two DOD Web sites* and found minor
differences. Therefore, we relied on the unit pricing data to calculate the cost of
potentially serviceable IBA components that were disposed of or redistributed.

While we recognize there is the potential for human and system error, we do not believe
that our overall audit results are negatively impacted by the limited testing conducted to
assess the reliability of DRMS data. We also provided a discussion draft of the report to
DRMS and OCIE CMO officials to ensure the number and dollar amount of IBA
components reutilized and disposed of were accurate and reliable. As a result, we believe
the computer-processed data were adequate to support the findings and conclusions
presented in this report.




*
 The two DoD websites were Defense Logistics Information Service
http://www.dlis.dla.mil/webflis/pub/pub_search.aspx and Army
http://lrc3.monmouth.army.mil/nsn/nsndata/index.cfm.


                                                37


Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DOD IG), and the Army have issued ten reports discussing
body armor. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the internet at https://www.aaa.army.mil.

GAO
GAO Report No. GAO-09-725T, “Military and Dual-Use Technology,” June 4, 2009

GAO Report No. GAO-08-644T, “Internet Sales,” April 10, 2008

GAO Report No. GAO-07-662R, “Defense Logistics: Army and Marine Corps’s
Individual Body Armor System Issues,” April 26, 2007

GAO Report No. GAO-06-943, “DOD Excess Property: Control Breakdowns Present
Significant Security Risk and Continuing Waste and Inefficiency,” July 25, 2006

GAO Report No. GAO-05-275, “Defense Logistics: Actions Needed to Improve the
Availability of Critical Items during Current and Future Operations,” April 8, 2005

DOD IG
DOD IG Report No. D-2009-047, “DOD Testing Requirements for Body Armor,”
January 29, 2009

DOD IG Report No. D-2008-067, “DOD Procurement Policy for Body Armor,”
March 31, 2008

Army
Army Audit Agency Report No. A-2009-0130-FFD-0067, “Body Armor Requirements,”
June 8, 2009

Army Audit Agency Report No. A-2009-0086-ALA, “Body Armor Testing, Program
Executive Office, Soldier,” March 30, 2009

Army Audit Agency Report No. A-2004-0202-AMA, “Interceptor Body Armor,”
March 17, 2004




                                           38


Appendix D. Concerns with the Transport of
Excess Equipment in Southwest Asia

                                                INSPECTOR GENERAL
                                              DEPARTMENT OF DEFENSE
                                                 400 ARMY NAVY DRIVE
                                            ARLINGTON , VIRGINIA 22202-4704
                                                                                                          AUG 2 4 ilXI!I

      MEMORANDUM FOR DIRECTOR OF LOG ISITICS, U.S. CENTRAL COMMAND
                      G4, U.S. ARMY CENTRAL

      SUBJECT: Concerns with the Transport of Excess Equipment in Southwest Asia Identi fi ed
               During the Audit of Body Annor Acquisition Life Cycle Management
               (project No. D2009-DOOOJA-Ol06JXlO)


              In April 2009, we visited the Theater Retrograde at Camp Arifjan, Kuwait. We are
      concemed wi th the transport of excess equipment to and within the Theater Retrograde, which
      contributed to the destruction of potentially serviceable Interceptor Body Annor components
      at the Camp Arifjan Defense Reutilization and Marketing Office.! We are also concerned that
      additional Government oversight may be needed to ensure that Theater Retrograde contractors
      are not fulfilling inherently governmental roles. 2 These concerns will be compounded as
      Theater Retrograde officials estimate that they will receive up to 25 times the amount of
      equipment during the drawdown of U.s. forces and equipment from Iraq.

      Background
              The Theater Retrograde acts as a theater collection point for excess equipment and is
      responsible for ensuring thc equi pment's redistribut ion or disposal. The Theater Retrograde is
      composed of three departments: Retro Sort, the General Supply Warehouse, and the Theater
      Redistribution Center and employs approximately 950 contractors and 16 Military officials.
      Retro Son officials and contractors are responsible for inspecting and sorting the equipment
      received. Ifth.e contractors determine that the equipment is serviceable and the Government
      official approves, they send it to the General Supply Warehouse for further inspection and
      potential redistribution. The General Supply Wareh.ouse contractors are also required to
      inspect the equipment to ensure that it is serviceable. If the General Supply Warehouse
      contractors agree that the equipment is serviceable, they contact an Anny Materiel Command
      official for disposition instructions and pack and ship the equipment to its assigned
      destination. If Retro Son or General Supply Warehouse contractors deem the equipment to be
      unserviceable and the Government official approves, the contractors send the equipment to
      the Theater Redistribution Center for further inspection and then to a disposal facility for
      subsequent di sposal.

      Units Sending Equipment to the Theater Retrograde
              During our April 2009 site visit, the Theater Redistribution Center Accountable
      Officer stated that approximately 95 percent of all equipment that comes into the Theater
      Retrograde does not have detailed shipping information. Retrograde officials believe that
      units are sending their excess equipment directly 10 the Theater Retrograde without detailed
      shipping infonnation, such as the sender, type of equipment, condition code, quantity, and
      weight. Officials at the Theater Retrograde stated that had the equipment passed through a


      'We plan to issue a draft report on the subject audit in Seprember 2009 and !he fInal repon in Ocrober 2009.
      2 An inhw:nlly governmental funetion is one that, as a maner oflaw and policy, must be performed by federal
      Government employees and cannot be contracted out because it is intimately related !o!he public interest




                                                         40


                                                                                        3




                                    1:ft~
                            Principal Assistant Inspector General
                                        for Auditing


cc: Director of Logistics, Joint SlafT
    Director, eJl /4/S, Multi-National Force-Iraq
    Director of Logistics, U.s. Air Forces Central
    Assistant Chief of Staff, G4, U.s. Marine Corps Forces Central Command
    C4, Multi-National Corps-Iraq
    Assistant Chief of Staff, Logistics and Infrastructure, U.s. Naval Forces Central
Command




                                         42


Appendix E. Summary of U.S. Central
Command Comments and Our Response
The Chief of Staff, U.S. Central Command, forwarded comments from the Deputy
Director of Logistics on memorandum, “Concerns with the Transport of Excess
Equipment in Southwest Asia Identified During the Audit of Body Armor Acquisition
Life Cycle Management,” August 24, 2009. The following is a summary of his
comments and our response. See Appendix D for the memorandum and page 46 of this
report for full text of the U.S. Central Command comments.

U.S. Central Command Comments
The Deputy Director of Logistics stated that each of the DOD OIG’s concerns listed in
the memorandum were being addressed, and that U.S. Central Command officials have
been implementing actions since April 2009. The Deputy Director of Logistics also
added that implementing policies and procedures to ensure a timely and responsible
drawdown of forces is a continuously improving process.

The Deputy Director stated that U.S. Central Command has developed multiple execution
teams to assist units and bases in properly redistributing, transferring, donating, and
disposing equipment to ensure that units are sending excess equipment to the Theater
Retrograde with detailed shipping information and the Multi-National Corps-Iraq has
published guidance to improve compliance with shipping standards and accountability.
He commented that the execution teams in theater are assisting units in properly
transferring equipment for disposal. Additionally, Multi-National Corps-Iraq is actively
engaged in enforcing the current policies and procedures, and Multi-National Corps-Iraq
personnel are continuously reassessing the retrograde processes to reduce the number of
shipping containers sent to the Theater Retrograde with inadequate shipping information.
The Deputy Director further stated that since April 2009, the Theater Retrograde has
shown a significant reduction in the amount of serviceable and non-obsolete items found
in the Defense Reutilization Management Service yard, which reflects the efforts of the
execution teams in Iraq. In addition, U.S. Central Command has instituted a weekly
“Offenders Report” that lists process violations for containers shipped from Iraq, which is
provided to leadership. Lastly, the Defense Logistics Agency is coordinating with
Multi-National Forces-Iraq and ARCENT in developing and coordinating procedures to
screen equipment turned into the Defense Reutilization and Marketing Service to reduce
the potential for waste.

To ensure that adequate Government oversight exists at the Theater Retrograde, the
Deputy Director stated that the layout and processes at the Theater Retrograde are set up
to reduce the potential for contractors performing inherently Government functions. He
stated that a Government official is the only individual who can determine the disposition
of property and that military personnel are providing the necessary oversight. The
Deputy Director also stated that the contracting officer’s representative performs daily
audits on the contractor operations, and the audit results are briefed to leadership
monthly.


                                            43

The Deputy Director also provided an information paper, which includes how
Multi-National Corps-Iraq, with ARCENT and Army Materiel Command support, will
control and monitor the drawdown of excess equipment out of Iraq.

Our Response
We commend Headquarters, U.S. Central Command; Multi-National Corps-Iraq;
ARCENT; and the Army Materiel Command for working collaboratively and taking
actions in an effort to provide a timely and responsible drawdown of forces and
equipment from Iraq. During our audit of the, “Management of Operations in the Theater
Retrograde, Camp Arifjan, Kuwait,” (Project No. D2010-D000JA-0055.000), which we
announced on October 27, 2009, we plan to work closely with those officials to assess
actions taken. Specifically, we will review the processes and procedures in place at the
Theater Retrograde, validate that the procedures ensure that DOD is effectively and
efficiently identifying and redistributing serviceable equipment to its assigned
destination, and ensure that serviceable equipment is not being sent to a disposal facility
for destruction. We will also review whether DoD has adequate resources available to
effectively meet current and anticipated demands during the drawdown of U.S. forces and
equipment from Iraq. No additional comments are required.




                                            44


Deputy Chief of Staff for Logistics, Department of the Army
Comments

                                                                                                     Final Report
                                                                                                      Reference



                                     DEPARTMENT OF THE ARMY                                        Tracking
                                   OFFICE OF THE DEPUTV CHI EF OF STAFF, G-4
                                             500 ARMY PENTAGON
                                                                                                   documents were
                                          WASHI NGTON, DC 20310.-0500                              omitted because of
                                                                                                   length. Copies will
                                                                                                   be provided upon



                                                 ~
                                                               ~tiO~O~
        DALO·SU I
                                                                                05      :.;        request.

        MEMORANDUM THRU DEPUTY CHIEF                        AFF, G·4, 500 ARMY PENTAGON,
        WASHINGTON, D.C. 20310

        FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL, 400 ARMY NAVY
        DRIVE, ARLINGTON , VA 22202

        SUBJECT: Department of Defense Inspector Gene ral (DoDIG) Report on the Anmy's
        Management of the Operations and Support Phase of the Acquisition Process for Body
        Armor Project No. D2009·DOOOJA·0106.oo0


        1. This is in response to DoDIG memorandum of 29 September 2009, which requested
        the Office of the Deputy Chief of Staff, G--4 review I comment on Recommendation A-1 .

        2. Recommendation A-l states: " ...the Deputy Chief of Staff for logistics (DCSLOG),       The
        Department of the Anmy (DA), direct the Program Executive Officer Soldier to submit        recommendation
                                 Click to add JPEG file
        updates to Interceptor Body Armor guidance for prope r storage, shipping, and
                                                                                                   was revised and
        maintenance for the current configuration and issue interim guidance until Technical
        Manuall0-B400-203-23, "General Repair Procedures for Individual Equipment ,~               redirected to PEO
        30 August 2000, is updated .... ".                                                         Soldier.
        3. The recommendation should be changed to read "the Assistant Secretary of the
        Army (Acquisition, Logistics and Technology) (ASA(ALT)) direct the Program Executive
        Officer Soldier (PEO Soldier) to submit updates .. .... The PEO-Soldier Is a subordinate
        organization to ASA (AL T) , not the Office of the Deputy Chief of Staff, G4.




        Encl
                                                      Director of Supply




                                                                    45
U.S. Central Command and U.S. Army Central Comments
 





                                       D STATES CENTRAl. COMMAND
                                      OFFICE OF TI IE CIUEF OF TAFF
                                     7115 SOllfH BOUNDARY BOULEVARD
                                MI\CO ll..L AIR FORCE BASE. FLORIDA 3362. 1-; Hli


                                                                                    5 November 2009

      FOR: DEPARTMENT OF DEFENSE INSPECTOR GENERAL

      SUBJECT: United States Central Command Response to DODIG Dnill Report "Army's
                    Management of the Operations and Support Phase of the Acquisition Process
                    for Body Armor" September 29, 2009 (Project No. D2009-DOOOJA-
                    01 06.000)

      1. Thank you for the opportunity to respond to the recommendations presented in the
      DODlG draft report.

      2. USCENTCOM provides the enclosed response to the DODJG memorandum, dated 24
      August 2002- included as Appendix D in the draft DOmG report, and ARCENT
      concurrence with Recommendation A.3 in the draft report.



                                   Click to add JPEG file


                                                 a
                                                           ~·~
                                                      J Y W. HOOD
                                                        ajor General, U.S. Army

      Enclosures:
      TAB A: CENTCOM Response to DODIG Memo, 24 Aug 09
      TAB B: ARCENT Response




                                                                     46
                          UNITED STATES CENTRAL COMMAND
                             7115 SOUTH BOUNDARY BOULEVARD 

                          MACOlLL AIR FORCE BASE, FLORIDA 3362 1-51 0 I 




                                                                             29 October 2009

TO: PRINCIPLE ASSISTANT INSPECTOR GENERAL for AUDITING.
DEPARTMENT OF DEFENSE INSPECTOR GENERAL
SUBJECT: USCENTCOM response to DoDIG memorandum. "Concerns with the
Transport of Excess Equijlment in Southwest Asia Identified during the Audit o[Body
Armor Acquisition Life Cycle Management." 24 August 2009.
Ref: MEMORAND UM, Concerns with the Transport of Excess              E~uipm ent   in Southwest
Asia Identified dwing the Audit of Body Annor Acquisition Life Cycle Management."
24 Augu>t 2009.

1. Implementing policies and procedures to meet the Presidential mandate of a timely
Responsible Drawdown of Forces while stiH engaged in a combat environment is a
continuous improvement process. USCENTCOM seeks to refine and improve the
processes and systems without encumbering units in combat while stm being good
stewards of tax payer dollars and resources. In response to DoDIO' s requests for
immediate action to ensure units are sending cqujp ment through proper channels. are
                             Click to add JPEG file
providing adequate shipping data and that tlie Theater Retrograde Yard has adequate
Government oversight JOT prevent contractors fro m ful filling inherenlly governmental
roles, USCENTCO&f assures the DoDIG that the plan is in place and in execution. Each
ofllie stated DoDIG concerns was in fact being addressed as part ofLhe plan and that
those implementing actions have been executed since the observations were made in
April 2009.
2. Ensure units are sending equipment through proper channels:
Control measures and execution teams have rol led out to assist units and bases to deal
with the volume of materiel and to correctly execute the 5 step process of consume,
redistri bute~ trallsfer, donate and dispose wlthill established procedures and authorities.
These control measures, tlle Drawdown Fusion Center (DFe) at MNF-I CJI / 4/ 8,
ARCENT Support Element-lra'l. (ASE-I) embedded with MNC-I C4 stalT. and
Responsible Reset Task Forcc (JUTF) have achieved full opcrntional capability and
provide oversight and control over the executing teams which include TF 586, Mobile
Redistribution"Teams. Redistribution Property Assistance Teams, Base Closure
Assistance Teams, and Container Repair Teams. Further, Operation Clean Sweep is in
progress with the purpose to execute the draw-down of all excess commodities 10 support
MND I Corps separate excess tum-ins NLT Ol December 2009. Enclosure I provides the
purpose and description of these teams and operations.
3. Units are providing adequate shipping data: 

The following f1ctions were taken by MNC-I10 mitigate transportation of undocumented 

t:ontainers: 

        - Published T ab to Annex D of OPORD 09-02.1 to address container
accOlmtability and shipping standards.
      - TF- 586 increased size and OPTEMPO ofMRTs through approved RFF 633
Mod I which e'"panded the capability throughout UOA.




                                                            47
       , MNC-J leadership is actively engaged in enforcing the CUlTent MNC,J policies
and procedures through the B2C2WG process. Key Boards, Bureaus. Cells. Centers, and
Working Groups (B2C2WG) events include: Joint Sustainment S~nchronization Board,
Transition Line of Operations (LOO) BatOe Update Assessments (BUA), Executive
Suslainmem Synchronization Boards. Commander's CPOF, and Suslainmem
Synchronization Working Groups. MNC-I continuously reassess the processes and
systems for effectiveness and efficiency to reduce lhc containers senllo the Theater
Retrograde Yard with inadequate srupping information.
4. 	The Theater Retrograde Yard has adequate Government oversight TOT prevent
contractors from fulfilting inherently governmental roles:
The conlr3ctor is empowered to make recommendations but the govemmentofficial is
the only one who can make a determination on me disposition of pro~rty . In general.
througfl the entire non mission essential equipmenl flow, there are mliirary personnel
proviaing the necessary oversight at key locations. Since April 2009 the Theater
Retrograde Yard in Kuwait has shown a sip:nificant reduction in Lhe amount' of
serviceable and non-obsolcte items found In the Defense Reutilizauon Management
Service (DRMS) yard. This reflects the efforts of Ibe tenmsin Imq and that the
processesIJayoul at the Theater Retrog;rade Yarc) is set up to reduce the potentia1 for
contractors from perfonning inherently Government functions.
5. 	 In addition the J. Theater Sustainment Command bas taken the foUowing actions:
        a. 	 The 593D Sustainme;M Bri..de bas instituted a weekly "Offenders Report"
             providing 1" TSC, 13' ESC .nd MNC-J leadership information on container
                             Click to add JPEG file
             process violations coming out of Iraq.
        b. Conducted daily audits by the COR team and regul ar audits by Ibe DCMA
            memberO[l Ule oontracIOToperations al the Theater Retrograde Yard. The
            results of the audits are briefed monthly to the 593D Brigade Commander.
6. 	 Finally. DLA is coordinating with MNF-l and ARCENT on developing coordinating
     procedures to screen materiel turned into the DRMS yard co reduce the potential for
   waste.


                                          ~{iA~1A1r'
                                          1ffu~!-idBBY- U
                                           Deputy Director of Logistics



Encl: USCENTCOM Worm.tion Paper




                                                          48
                           CCJ4 INFORMATION PAPER
                                                                        29 October 2009

Subject: (U) Units Sending Equipment to the Theater Retrograde Yard.

I. (U) ~ To provide Department of Defense Inspector Genem[ (DoDIG) with
infonnotion as to how Multi-National Corps-Iraq (MNC-I), with Anny CenuaJ
(ARCENT) and Anny Material Command (AMC) support will control and monitor the
drawdowD of excess equipment out oflraq.

2. (U) Discussion. Since March 2009, MNC·[ implemented policies and procedures to
meet the Presidential mandate ofa timely Responsible DmwdoWD ofForces while still
engaged in a combat environment. The processes are under continuous improvement and
refinement that rums to balance between: I) minimizing the encumbering of units and 2)
a Responsible Drawdown that represents a good stewardshlp of tax payer dollars and
resources. There are three ways units may send equipment to the. Theater Retrograde
Yard. Those three ways are: Redistribution Property Assistance Team (RPAT), Mobile
Redistribulion Team (MRT), and Supply Suppon Activilies (SSA).

    a. (U) RPAT. RPAT personoel are assigned to the 402nd Anny Forward Support
                           Click to add JPEG file
Battalion (AFSB). The RPAT specifically focuses on Class Vll (Major End [terns) items.
When units in 1m'!, based on operations and current environment. determine Class VU
items are Non-Mission Essential (NME) equipment, units submit a NME listing to the
MNC-I C4 Supply & Services asset visibility section requesting disposition instructions.
The C4 uses the NME list to fill Iraq Joint Operations Area (llOA) requirements, the
remaining NME items are provided to the ARCENT Support Element-iraq (ASE-I) to fill
CENTCOM and Departmenl of the Anny (DA) requirements. The C4 then publishes a
MNC·[ frngmentary orders (FRAGO) directing disposition for all the items on the unit
NME listing. The unit executes the disposition instructions as directed. RPAT receives
and accounts for NME based on the FRAGO then prepares and submits a Transportation
Movement Request (TMR) to retrograde the NME to the Theater Retrograde Yard.
RPATs redistribute NME equipment (Class VJl) lAW published MNC-[ disposition
instruction FRAGOs. Additionally, MNC-I FRAGO 0028 outlines the RPAT process
and provides required documentation standards for rum-in.

    b. (U) MRT. MRT personnel are assigned to TF 586, but designated under
opemtional control (OPCON) to the [3th Sustainment Command (Expeditionary) (ESC).
The MRT specifically focuses on commodities other than Class VU. As units identify
bases for closure, the 13th ESC assigns the MRT to categorize and identify unit declared
NME commodities. After the unit inventories the NME and categorize the items
(serviceable and unserviceable). the MRT coordinates with the unit to prepare and submit
the comainer's TMR for retrograde to the Theater Retrograde Yard.



                                   UNCLASSIFIED




                                                        49
    c. (U) SSA SSA personnel are assigned to support battalions. but coordination
between SSAs is perfonned by the 13th ESC. If units identity NME (includes Class lX
excess I unserviceable recoverable items except Class VII), wilts twn in NME to their
respective supporting SSA. Once the SSA receives the NME, the tum-in section reviews
the unit documentation, review condition tags, processes tum-in into the Standard Anny
Retail Supply Slstem- Levell, which then produces a Material Release Order for final
disposition. 13 ESC can direct one SSAs NME to another SSA if there is a shortage
thereby preventing unnecessaI)' movement to Kuwait. Prior to Sep 09, SSAs turned in aU
received NME to the Forward Redlstribution Pomt; however, since Sep 09, SSAs tum-in
NME to the Tbeater Retrograde Yard once directed.

3. (U) Control Measures: Since March 09, MNC-I initiated a number ofmitigation
strategies and is in the process of initially several mOTe. The purpose of these strategies
is to assist units in the correct and timely tum~in to SSAs, reduce the challenges they face
in turning in their excess prior to leaving the FOB, and prevent them from sending
undocumented containers directly to Kuwait.

    a. (U) ASE-l. ASE-[ became fully operational in lun 09. The ASE-I is located in the
MNC-[ C4 with LNOs from ARCENT, Theater Sustainment Command, DA 04, DA 08,
                            Click to add JPEG file
AMC, and DLA. The key responsibilities of the ASE-I are to process dispositions and
retrograde all declared NME equipment from the Iraq lOA. The ASE-I critical tasks
include:
       - (U) Provide a single common operating picture for all equipment within the
IJOA to identify and track redeployment and retrograde.
       - (U) Rapidly generate theater and HQDA disposition within 96 hour.; of
""uipment being declared NME.
          (U) Assist retrograding forces with documentation, disposition, movement and
customs certification of all commodities and white equipment.
       - (U) Retrograde responsibly. ASE-J synchronizes retrograde efforts and
planning between multiple headquarters (MNF-I, MNC-I) and ensures ARCENT,
CENTCOM, DA directives are completed in the most effective and efficient manner.

   b. (U) Base Closure Assistance Team (BCAT). As a proof of principle, initially the
BCAT was an internally manned tearn in the MNC-l C4, augmented with additional
MNC-I and MND staff subject matter experts (SMB). Now with an approved request, the
BCATs will consist of a total of 5 teams of 6 persons each (SMB in Foreign Excess
Personal Property, Material Disposition Specialist, Transportation Specialist~ Real
Property Engineer, and Contract Specialist - Defense Contract Management Agency).
The teams' distribution is 1 per MND, MNF-W, and Corps. LOGCAP is to provide
S:M.Es in environmental and property accountability. The team purpose is to ensure
orderly responsible systems at Brigade Combat Tt::am (BCT) level. MNC-Jsends a



                                     UNCLASSIFIED




                                                          50
seAT J4O-days prior to base dosurelhand-over date to train, assist, and provide
oversight to units in the proper procedures regarding NME commodities and equipment
Currently written, the Statement of Work allocated the funding for the additional BCATs,
and expects IOC 15 Dec 09.

    c. (U) Published Orders. Since 1 Mar 09, MNC-J published 270 disposition
FRAGOs dealing with N1viE. In addition, we have produced FRAGOs with specific
gu idance on equipment and container retrograde and in-transit visibility. Additionally, on
16 Oct 09 DA G4 disseminated an AMHS message referencing the classification and
rum-in of items to the Defense Reutilization Management Service (DRMS), HQDA G4
directed ARCENT to designate the appropriate number ofrepresentatives to routinely
visit each oftheDRMS locations for material and supplies that are improperly classified
as unserviceable and redirect those items accordingly for accountability and reintegration
into the supply system.

    d. (U) Equipment retrograde. Each unit receives specific and detailed disposition
instructions via published MNC-l FRAGOs. The coordinating instructions outlinc the
specific actions units must do to maintain the proper equipment retrograde standard.

   e, (V) Container retrograde, blocking, bracing, and shipping documentation, In
                            Click to add JPEG file
addition, MNC-I is drafting more definitive guidance, procedures, and policies by
publishing a Tab to Annex D (Sustainment) to MNC-I CP 09-02 Implementation Order.
This will address specific container blocking and bracing of containers, the use ofRFID
tags, as well as the proper container documentation requirements. This provides more
detailed guidance to units to ensure NME packed in containers arc done to the proper
standards. This will ensure continuous velocity of the flow; while increasing efficiency
and eflectiveness upon receipt at the ·theater Retrograde Yard

  f. (U) In-Transit Visibility (lTV), Tab to Annex D (Sustaimnent) to MNC-J
Campaign Plan 09-02 Implementation Order. This annex dictates the use ofRFlD tags to
have lTV throughout the process. This gives better visibility of the movement of the
NME to the Theater Retrograde Yard. This will reduce and minimize unexpected
retrograde containers.

4, (U) Government Oversight: Ibrough the entire NME flow there are military
personnel providing the necessary oversight and at key Locations. The following
organizations have duties and responsibilities of the military personnel that provide the
over watch throughout the process. Corrective actions at unit and corps levels will
significantly reduce any additional effort by government oversight that is beyond their
scope of work.




                                     UNCLASSIFIED




                                                          51
    a. (U) TF 586: Headquarters is located at Joint Base Balad (JBB). The organization
provides the Government oversight for the entire rerrograde processing. They provide
the personnel for the RP AT, MRPAT, and MRT currently employed in Iraq.
Additionally they are the personnel on the ground providing unit level assistance as
             J


necessary.

    b. (U) 402nd AFSB: Headquarters is lcealed at JBB. The 402nd AFSB ensures that
retrograde process is conducted to the standards as dictated by MNC-llhcster policies
and procedures.

    e. (U) MNC·I C41MND G4s: MNC·I C4 is at Victory Base Complex and MND G4s
arc at each respective division locatiolL The C4/G4 provides the oversight of BCATs
employed in Iraq. The C4IG4 over·watches the BCATs to ensure cocrdinated assistance
during the Responsible Drawdown of Forces base closure/h:and-over timelines.

    d. (U) Early Indicators. Feedback from ARCENT states that since August 2009
there is a significant reduction in the amount of serviceable and obsolete items incorrectly
'hipped to the Theater Retrograde Yard. This reduction in shipment directly correlates to
a reduction of the additional man·hours invested by Theater Retrograde Yard personnel
that were witnessed by the DoDiG Inspection ream in April 2009.
                            Click to add JPEG file
5. Director's Comments.

    Concur that progress is an ongoing continuous process moving forward in reducing
erroneous excess and waste thru efforts by aU stakeholders. Believe it is in everyone's
best interest to continue to monitor the pulse of the process. Regular communication
between DoDiG and USCENTCOM essential to keep the focus and ."ention on this
issue.



                                                  ~~~.
                                                   D:~·;;~1
                                                   SES,
                                                   Deputy Director of Logistics




                                     UNCLASSIFIED




                                                          52
                                                                                                       Final Report 

                                                                                                        Reference






                  DODIG DRAYr REPORT - DATED 29 September 2009
                       DODIG CODE - D2009-DOOOJA-OI06.000

 "'Army's MaDagemenl of the Operations and Suppon Phase of the Acquisition Proc,ess for
                                    Body Armor'"

                                   ARCENT COMMENTS
                                  TO THE DRAFT REPORT

RECOMMENDATION I. (A.3.) DODlG recommends that the Commander, U.s. Anny
Central conduct the following:. (DODrG report page 13)
                                                                                                     Page 15
   2.   Issue guidance directing all Army sites to ensure proper procedures are performed when
       cleaning the Improved Outer Tactical Vest and Outer Vest.
   b. Direct all Army sites responsible for the storage, shipping, maiotenance, and repair of
       Interceptor Body AnnaT to update or develop their policies and procedures to ensure
       comp liance with the revisions to the Technical Manual referenced in Recommendation
       A.2 .
   c. Require a briefing at the issuing facilities prior to receipt of Interceptor Body Armor that
       infonns soldiers of the importance of properly handling the ballistic plates and reiterates
       the appropriate procedures for cleaning the Improved Outer TacticaJ Vest and Outer
       Tactical Vest.

                               Click to add JPEG file
ARCENT RESPONSE: ARCENT concurs with the infonnalion contained in the DODIG
report and implemented tbe following: 1) Published ARCENT message M09-267 Dated
14 1435Z Apr 09. 2) ARCENT has modified the rnA Contract 10 discontinue cleaning of aJ l
IOTV in Theater. 3) The DeG has direcled 100% screening of Soldiers plates processing
through the IBA Warehouse for Rest and Recuperation (R&R) and those Soldiers processing
through Camp St:uhring for RlXeption Staging, Onward Movement and integration (RSOl) .
ARCENT with support from Program Executive Officer (PEO) shared a common understanding
by plaCing one of2 Non Destructive Test Equipment (NOTE) in Camp Bcuhring, and one in
Afghanistan Location TBD. This NDTE is a requirement necessary to ensme the Warfighter has
serviceable ballistic plates not seen to the naked eye. ESAPI plates identified by the NDTE as
exhibiting cracks are removed by PEO Soldier personnel and all are sent to Aberdeen Test
Center (ATC). ARCENT with the Support from PEO Soldier is working to remedy all the areas
of concerns ex pressed by the DODIG Audit learn .




                                                              53
14 1435Z APR 09
FM HOS USARCENT ARIFJAN KUWAIT KUII0 311
TOAMC-SWA
U SARCENT ARIFJAN KUWAIT KUIIG41I
CJTF-101
U SFOR-A
MNCI
HQOAlIG3/G8/G41
INFO! CENTCOM
1TSC
USARCENT
UNCLASSIFIED
OPERIENOURING FREEDOMII
MSGIOIGENADMINIlISARCENT ARIFJAN KUWAIT KU/lG411
SUBJIlISAIRCENT MESSAGE M09-267 PREVENTIVE MAINTENANCE CHECKS
lAND SERVICE (PMCS) OF ESAPI PLATES.

 1. (U) The purpose of this message is to provide guidance for the PMCS of ESAP-I
plates and IOlV. In order to assure that your outer tactical vest system continues to
provide the protection intended, it is extremely important that you foilow the
maintenance Instructions provided below.
Required actions'
                         Click to add JPEG file
 1.A. (U) Sok!iers conducting combat missions must inspect inserts and IOTV before
each mission using procedures in paragraph c.
 1.B. (U) SoJdiers operating in a Command and Control environment m ust inspect these
inserts and IOTV quarterly using procedures in paragraph c.
1.C (U) Inspection: Commanders will review the procedures for proper inspection of
the ESAPI and ESSI inserts (plates) as outlined in the IOTV use and care manual and
other documentation to ensure that Soldiers are following proper inspection procedures.
The ESAPIIESBI inser1 must be turned in if any of the following conditions are present
1.C.1. (U) The outer cover is damaged exposing the black ceramic tile material.
1.C.2. (U) The ESAPUESBI IS cracked and you hear loose pieces rattling around when
the ESAPVESBI is shaken.
1.C.3_ (U) The ESAPIIESBI plates bend or twist indicating the plate is broken.
1.CA. (U) T he composite back face is delaminated and the individual fabric plies are
separating.
1.C.5. /U) If your ESAPII ESBI is hn by fragmenls. turn n in.

2 . (U) Replacemenls: Order replacemenls as follows: ESAPI nalional stoel< number
8480·0 1-520-7380 (X-SM) ESAPI national slock number 8480-01 -520-7370 (SM)
ESAPI naliooalslock number 948~1 - 520-7373 (MEO) ESAPI national sieck number
8480·01 ·520·7385 (LRG) ESAPI national stock number 9480-01-520-7382 (X-LRG)
ESBI national stock number 8470·01 ·536·7227 (one size) Replacements are stocked
through CIF.
3. (U) Cleaning: Do not machine wash or dry. Failure to follow these instructions may
render your ESAPIIESBI use.... against bamstic threals.




                                                       54
3.A. (U) Remove loose dirt and lint from the outer surface of the ESAPlIESBI using a
cloth or soft bristle brush. Never use a stiff bristle brush.
3 .B. (U) Wet the ESAPVESBt in a sink or shower ustng warm, not hot, water.
3 .C. (U) Apply a mild soap or detergent to the soiled areas and scrub with a doth or
soft bristle brush. Badly soiled areas may be scrubbed with GI soap. Scrub onfy long
enough to remove soli.
3.0. (U) Heavy grease! oil stains may be pre-spotted with a dry cleaning solvent and
detergent mixture and scrubbed with a soft brush.
3.E. (U) Rinse Ihe ESAPIIESBI with walTll water unUI ali suds are completely gone.
3 .F. (U) Let the insert dry by itself, away from heat or open flame.
3.G. (U) Storage: Proper storage of the ESAPI and ESBI by individual Soldier and at
Central Issue Facilities (elF) is critical to avoiding damage and maintaining the plate's
effectiveness.

3.H. Individ uals:
3.H.l. (U) Always clean yoor ESAPIlESBlIhoroughly before storing.
3.H.2. (U) Insert the ESAPlIESBI into the IOTV pockts in the same manner as when
wom. This prevents loss of components _
3 .H. 3. (U) Store the IOTV system as flat as possible to avoid bunching of materials.
3.H A . (Ul lt i. recommended thallhe .y5lem be .Iored in a pla.Uc bag 10 keep out dirt,
dust and moisture.

                          Click to add JPEG file
3.1. (U) fnterim Repairs of IOlV: The following interim repairs can be made to the ION
until the vest can be exchanged.
3.J. (U) Rigger's tape can be used to fix tears or holes in the carrier, keep the vest
dosed, hold the ballistic panels in piece, or repair any hook and pile that has been
damaged.
3 .K. (U) Thread-on buckle can be used to repair broken buckles on side straps.

3.1. (U) Interim Repairs of ESAPVESBI: The following interim repairs can be made to
the ESAPlJESBI until tho vest can be exchanged.
3 .L.1 . (U) The outer cover can be repaired USing rigger's tape until it can be
exchanged.
3.L2. (U) IF YOUR ESAPIlESBI IS HIT BY FRAGMENTS, TURN IT INI




                                                         55
    U~~Ct ..'I.SSi/:'It-"
    201820Z JUNE 09 

    FM USARCENT P,RIFJAN KUWAIT KUIIG3J1 

    TO USARCENT ARIFJAN KUWAIT KUIIG3!! 

    1Sf SUSTAINMENT COMMAND In 

    INFO 

    PEO SOLDIER HOS FT BELVOIR VA 

    AMC-SWA 

    USARCENT ARIFJAN KUWAIT KUi/G4II 

    5 nTH MI BD~ l-I 

    335TH THEi\7ER SIGNAL COMMAN D 

    ASG·KU
    USARCCNT HQS I'T MCPHERSON GNNVATCH 

    USCENTCOM 

    USCENTAF 

    USSOCCENT 

    MARCENT 

    NAVCENT 

    MNFI 

    MNCI 

    USFOR-A 

    CJTF82 
               Click to add JPEG file
    fIQDNlG3iG8JC-41 

    8T
    UNCLASSIFIED
    OPERlJRAQI FREEOOMIIENDURING FREEOOMiI
    MSGIDIFRAGOIUSARCENT ARIFJAN KUWAIT KUIIG3IIC-4
    SUBJIUSARCENT FRAGO 09-123. SCNINING AND INSPECTION OF ESAPI
    AND ESBI PLATES/I
    REFINOOD IG INFO PAPERII
    REF/B/ALARACT' USARCENT MESSAGE M09·267 INSPECT ION.
    MAINTENANCE. AND REPLACEMENT OF ENHANCED SMALL ARMS
    PROTECTIVE INSERTS (ESAPI) AND ENHANCED SIDE BALLfsnc INSERTS
    (ESBI) PLATES)I
    1. (U) SfTlJATIONJ!

    1. A. (U) USARCEN T will perform 3 100% inspection and exchsnge of
    Enhanced Small Arms Protective Intierts (ESAPI) and Enhanced S de Ballistic
I   Insorts (ESBI) of Soldiers plates transitioning through Rest and Recuperation
    (R&:R). emergetley leaves. or anycircumstanc:es where Soldiers leave and return
    gOIllg: throlJgh the ISAW to ensure servlceab~ity of plates starting 17 JUt'\t! , 09.1/

    I , S, (U) On Of about 10-15 April. 09 a DOD IG team conducted a site .survey in
    Kuwait for The Audit of Body Annor Acquisition Ufe Cycle Management The
    DOD lG team Identified that 100% scannmg of ESAPI and ESBI plates vvere not
    being scanned) }




                                                             56
1. C (Uj The- {!vmy has a new capabilitv to enSUffi the il\Specuon process at
Individual body annor plate serviceability _ThIs capability IS the Non· Des!ructlve
Test Equipnw.rll INOTE) '.vhich is co-located at the Interceptor Body Armor
Warehouse (lBAW) located at Ali AI Salem Kuwait. This system is ubli.zcd iu
scan pla.s5 and gf"e les result of pass or faiL 11

2. (U) MISSION. No change.ll
3. (U; EXECUTION.I!
3. A. iU) COMMANOER'S INTENT No change.l!

3 B. (UI CONCEPT OF OPfRATIONS.!!

3. S. 1. (U) Soldiers will do a one lor one eXchange of ESAPI and ESBI plal~s
dunng theirtlansrtllJfl through the Interceoror Body Almor Warehouse (IBAWJ
loca ~ at Ali AI Salem, Kuwart processing before or afier R&R.l1


3 C. (U) ",SKS ro SUBOR DI NATE UNITS. if
3. C.1 (II) lsI SC n
3 C 1 A. 1:;\t $C(n
                  WIll manage and prOVIde co       ~nd    and cont/oi over the
ISAW STA TING 17 June 09 II
                       Click to add JPEG file
3. C.ts. (U) Coordinates with PE0 Soldier to develop a MOA fer the lSAW SOP
II

3. D. (U; COORDINATI NG INSTRUCTIONS./i

3. 0 .1. (U', Plate exchange at the ISAW is mandatory for at! Sokfiers Ofior to
departing or letumtng fOf R&R. eme.--g6nt••) , leave. or any circumstances where
Sok1iers leave and return to the AOR Plates exchangert during this process wi!'
be on a one for one basis fI

3. 0.2. (U' All Soldiers processmg through the ISAW will bring their ESAPI and
ES81 pJatesl,'

J D.J (U) OIRLAUTH Is .Utho:iZedJI

4. (U) SERVICE AND SUPPORT. No changeJf
~ . (U) COMMAND AND SIGNAL 1st SC (T) wiD manage this OPeratlonJI
5 A       POINTS OF CONTACT.II




                                                        57
U.S. Army Installation Management Command Comments
 





                                                 DEPARTMENT OF THE ARMY
                                           US ARMY INSTALLATION MANAGEMENT COMMAND
                                                 2511 JEFFERSON OAVIS HIGHWAV
                                                    ARLINGTON VA 22202-3926


                         IU; rI.~   I II
                         ,\Tl'r ~· nO ~ IW

                                                                                     OCT 2 7 2009


      MEMORANDUM FOR Department of Defense Inspector General, 400 Army Navy
      Drive, Arlington , Virginia 22202-4704

      SUBJECT: Army's Management of the Operations and Support Phase of the
      Acqu isition Process for Body Armor (Project No. D2009-DOOOJA-0106.000)


      1, Reference Department of Defense In spector General (DODIG) draft report , 29 Sep
      09 , subject: Army's Management of the Operations and Support of Phase of the
      Acquisition Process for Body Armor (Project No. D2009-DOOOJA-010S.000).

      2. Installation Management Command (IMCOM) concurs with the findings and
      recommendations of the referenced draft report , Below are the IMCOM responses
      addressing each applicable finding .

         a. "Recommendation A.3. We re commend that the Commander, U.S. Army Central
                                            Click to add JPEG file
      Command and Commander, U.S. Army Installation Management Command, and the
      Adjutant General of the U.S. Army:

            a . Issue guidance directing all Army sites to ensure proper procedures are
      performed when cleaning the Improved Outer Tactical Vest (IOTV) and Outer Tactica l
      Vest.'

      Command response : concur. On 15 Oct 09, IMCOM G-4 publislled guidance to
      IMCOM central issue facilities (CIFs) directing them to follow the hand washing
      procedures in the IOTV Use and Care manual. In addition , we provided C IFs with
      guidance on establishing lOTV cleaning contracts.

             "b. Direct all Amny sites responsible for the storage, shipping, maintenance, and
      repair of Interceptor Body Armor to update or develop their policies and procedures to
      ensure compliance with the revisions to the Technical Manual referenced in
      Recommendation A2."

      Command response : concur. TM 10-8470-207- 13&P , "Interceptor Body             Armor ,~   is yet
      to be published by PEO Soldier. Within 30 days of release of TM 10-8470-207-13&P,
      IMCOM will issue guidance directing CIFs to comply with the new technical manual.

            "c. Require a briefing at the issuing facilities prior to receipt of Interceptor Body
      Armor that informs soldiers of the importance of properly handling the ballistic plates
      and reiterates the appropriate procedures for cleani ng the Improved Outer Tactical Vest
      and Outer Ta ctical Vest:




                                                                         58
IMLO-S
SUBJECT: Army's Management of the Operations and Support Phase of the
Acquisition Process for Body Armor (Project No, D2009-DOOOJA-0106,000)


Command response : concur. On or before 6 Nov 09, IMCOM will publish a directive
requiring CIFs to incorporate 10lY and ballistic plate cleaning instructions into their
Soldier in-briefings.

   b. "Recommendation B.3. We recommend thai the Deputy Commanding General.
Installation Management Command , direct issuing facilities to comply with the All Army
Activities Message in Recommendatio n B. 1.d. by developing , publishing, and
implementing effective procedures to consistently identify ballistic plates specified for
return ."

Command response: This recommendation is contingent upon the release of a new
OA G-4 ALARACT message establishing a recurring requirement to return specific lots
of ballistic plates. Within 30 days of new message release, 1MCOM will direct CIFs to
comply wilh Ihe message.

3. In addition, IMCOM wi ll add these inspection areas to our Command Inspection
Program checklists to ensu re future complia nce by CIFs.
                           Click to add JPEG file




                            ~4-
                              f,:;:;     COL, USA
                                         Chief of Staff




                                            2




                                                       59
U.S. Army TACOM Life Cycle Management Command
Comments




                                             DEPARTMENT OF THE ARMY
                                 UNITED STATES ARMY TACOM UFE CYCLE MANAGEMENT COMMAND
                                                  &501 EAST 11 MILE ROAD
                                               WARREN, MICHIGAN 483U·5OOQ


               ATTEIfl1C* OF :



      AMSTA-CSC-J                                                                  26 October 2009


      MEMORANDUM FOR Program Director, Joint and Southwest Asia Operations, Office oflhe
      Inspector General, 400 Army Navy Drive, Arlington, VA 22202-4704

      SUBJECT: Department of Defense Inspector General Draft Report on the Audit of the Army' s
      Management of the Operations and Support Phase of the Acquisition Process for Body Armor
      (project No. D2009-DOOOIA-0106.000)


      I . Reference memorandum, dated 29 September 2009, subject: Army' s Management oflhe
      Operations and Support Phase of the Acquisition Process for Body Armor (project No. 02009-
      DOOOJA-Ot06.000) .

      2. We have reviewed the subject draft report and are enclosing the official TACOM LCMC
      reply to report Recommendation B.2 addressed to the Commander, TACOM LCMC. We agree
                                        Click to add JPEG file
      with the recommendation and our planned corrective action is in the enclosed reply.

      3. The TACOM LCMC Internal Review and Audit Compliance Office will track the status of
      the corrective action to the recommendation and perform a follow·up review to verify that the
      corrective action has been completed.




      End
      as                                                ~ J.~
                                                        D
                                                              W. Pic
                                                             uty Chiefof Staff




                                                                       60
     U.S. Army TACOM Life Cycle Management Command (LCMC) Comments 

          to DODIG Audit of Army 's Management of the Operations and 

            Support Phase of the Acquisition Process for Body Armor 

                     (Project No. D2009-DOOOJA-Ot06.000) 


Objective: DODIG's overall objective of the audit was to determine whether DOD was
effectively manag ing the operations and support phase of the acquisition process for
body armor components.

DODIG Conclusion: OODIG found that the automated inspection process for ballistic
plates should be improved. Based on meetings with senior Army officials during the
audit of -DoD Testing Requirements for Body Armor,· January 29, 2009, DODIG
expected to find that Testing Equ ipment officials were collecting and x~rayin g 100
percent of soldiers' ba llistic plates during rest and recuperation leave. Instead, DODIG
found during their April 2009 site visit to Camp Ali AI Salem that Testing Equipment
officials had only conducted an exchange experiment from January through March 2009.
During this experiment, soldiers on leave for emergency, rest and recuperation , or
temporary duty had the option of exchanging their ESAPI for an ESAPI that had passed
the Testing Equipment inspection from the ISA Warehouse contingency stock. Because
there was no requirement to x~ray soldiers' ballistic plates, Testing Equipment officials
could only ask the soldiers to volunteer their ESAPI for inspection. ISA Warehouse
officials stated that soldiers only exchanged about 400 of the 60,000 ESAPI ballistic
plates processing through the warehouse during the 9O-day period. While some soldiers
volunteered to exchange their ESA?I for ballistic plates that passed Testing Equipment
                       Click to add JPEG file
inspection, it was not a continuing effort nor did it encompass testing of 100 percent of
soldiers' ballistic plates.

Although some senior Army and issuing facility officials stated that they were under the
impression that the system was fully operational , the Testing Equipment system is still in
the developmental phase of the acquisition life cycle, and PEO Soldier is working toward
completion of required documentation, to include testing and analysis, to meet its next
milestone. To prevent further confusion , PEe Soldier should issue interim guidance on
the Testing Equipment systems' limitations and capabilities, including whether
automated and visual inspections are required , until the acqu isition strategy and
supplemental documentation is approved and published .

Additional Facts:

None.

 Recommendation B.2. DeDIG recommends that Commander, TACOM Ufe Cycle
Management Command issue the revised Maintenance Advisory Message 09~005 once
the Program Executive Officer Soldier provides clarification and updates on the
inspection process.

Commander, TACOM~LCMC Comment: Concur. Once the Program Executive
Officer (PEO) Soldier provides clarification and updates on the inspection process, the
TACOM~LCMC Integrated Logistics Support Center will issue a revised Maintenance
Advisory Message 09~ 005 . Target date for implementation is 30 days from receiving the
clarification and updates from PEe Soldier.




                                                      61
Program Executive Officer Soldier Comments






                                        DEPARTMENT OF THE ARMY
                                       PROGRAM EXECUTIVE OFFICE SOLDIER
                                            5.01 PUTNAM ROAD, BLDG 328
                                            FORT BELVOIR VA 220&0-$422

                                                                              23 October 2009



       MEMORANDUM FOR DEPARTMENT OF DEFENSE OFFICE OF THE INSPECTOR
       GENERAL, 400 ARMY NAVY DR , ARLINGTON, VA 22202

       SUBJECT: Response to the Department of Defense Inspector General (000 IG) Report
       -Army's Management of the Operations and Support Phase of the Acquisition Process for Body
       Armor: No. D2009-DOOOJA-0106.000, September 29, 2009


       1. Program Executive Office (PEO) Soldier appreciates the opportunity to comment on the
       subject report and to use the recommendations of this report to strengthen the logistical
       processes utilized by the PEO to produce, provide, and maintain world class body armor
       protection for the Soldier. This response addresses the three PEO Soldier related
       recommendations (A2 , 8 . 1, and C.1 ) and associated findings.

       2. Comments regarding the draft recommendations are as follows.

         a. Recommendation A.2. We recommend that the Program Executive Officer Soldier, in
                                   Click to add JPEG file
       coordination with the Army Deputy Chief of Staff for Logistics, the TACOM Life Cycle
       Management Command, Organizational Clothing and Equipment Central Management Office,
       and the Defense Logistics Agency:

           (1) Update the, -Logistics Supportability Strategy for Interceptor Body Armor, " June 2,
       1999, to include storage, shipping, and maintenance guidance for the current Interceptor Body
       Armor configuration. (A.2.a)

                      ~~:;;f,~:il i~Concur. PEO Soldier is preparing an over arching Interceptor
       Body           A               i  Strategy with annexes specifically addressing the supportability
       of the n"t.,T.M;,·. ,               the Improved Outer Tactical Vest (IOTV), Hard Body Annor,
       Soft Body Armor, and                      Test Equipment (NOTE). The estimated completion date
       of the IBA supportability strategy is    Quarter Fiscal Year (FY) 2010.

             (2) Submit updates to the Technical Manual 10-8400-203-23, -General Repair Procedures
       for Individual Equipment,- August 30, 2000, or issue a new Technical Manual that includes
       storage, shipping , and maintenance guidance for the current Interceptor Body Armor
       configuration and disseminate the Technical Manual to all Army facilities. (A.2 .b)

            PEO Soldier Response: Concur. PEO Soldier is removing ISA from Technical Manual
       (TM) 10-8400-203-23. A new TM for Soldier Protection Equipment is in development to include
       storage, shipping, and maintenance guidance for the current IBA configuration . The estimated
       completion date of the new TM is 2nd Quarter Fiscal Year (FY) 2010.

            (3) Develop repair procedures for the Improved Outer Tactical Vest and include the new
       procedures in the Technical Manual referenced in Recommendation A.2.b. (A.2.c)




                                                                   62
SFAE-SDR
SUBJECT: Response to the Department of Defense Inspector General (000 IG) Report
-Army's Management of the Operations and Support Phase of the Acquisition Process for Body
Anmor: No. D2009-DOOOJA-0106.000, September 29, 2009

     PEa Soldier Response: Concur. PEa Soldier is preparing a new TM to develop repair
procedures for the OTV. The estimated completion date of the new TM is 2nd QUarter Fiscal
Year (FY) 2010.

     (4) Determine whether the Enhanced Small Arms Protective Inserts can and should be
repaired and if so, include the new procedures in the Technical Manual referenced in
Recommendation A.2.b. (A2.d)

      PEa Soldier Response: Concur. The Army determined, at this time, that the ESAPI hard
armor insert cannot be repaired . However, procedures are being developed to replace the spall
cover that surrounds the hard armor if it becomes unserviceable. Add itionally, if repair
procedures are developed to repair the ESAPI hard armor insert, an update will be incorporated
into the new TM .

  b. Recommendation 8.1 . We recommend that Program Executive Officer Soldier:

       (1) Develop a new Technical Manual or submit updates to Technical Manual 10·8400·203­
23 , "General Repair Procedures for Individual Equipment,· August 30, 2000, using the most
appropriate means, to the Oeputy Chief of Staff for Logistics , Department of the Army , The
Technical Manual should include specific and clear procedures for detecting extemal material
failures for Enhanced Small Arms Protective Inserts and Enhanced Side Ballistic Inserts. The
                            Click to add JPEG file
Technical Manual should also clarify that visual inspections are required even if the ballistic
plates have a Testing Equipment Passed Inspection label. (B.1 .a)

      PEO Soldier Response: Concur. A new TM 10.s40()'203·23, "General Repair Procedures
for Individual Equipment,· August 30, 2000, for Soldier Protection Equipment is in development
to provide clear procedures for detecting extemal material failures for Enhanced Small Arms
Protective Inserts and Enhanced Side Ballistic Inserts. The TM will also clarify that visual
inspections are required even if the ballistic plates have a Testing Equipment Passed Inspection
label. The estimated completion date of the new TM is 2nd Quarter Fiscal Year
(FY) 2010.

    (2) Submit updates to Maintenance Advisory Message 0S.005, using the most appropriate
means, to the TACOM life Cycle Management Command , including specific and clear
procedures for detecting extemal material failu res for Enhanced Small Arms Protective Inserts
and Enhanced Side Ballistic Inserts. (B. 1.b)

     PEO Soldier Response: Concur. PEO Soldier will provide the TACOM Life Cycle
Management Com mand updates to Maintenance Advisory Message 09'()05 that will include
specific and clear procedures for detecting external material failures for Enhanced Small Arms
Protective Inserts and Enhanced Side Ballistic Inserts. The estimated completion date of the
new updates is 2nd Quarter Fiscal Year (FY) 2010.

     (3) Clarify guidance for inspecting the Enhanced Small Arms Protective Inserts and
Enhanced Side Ballistic Inserts in the Improved Outer Tactical Vest Use and Care Manual,
Maintenance AdviSOry Message 09·005, and All Army Activities Message 10912009 so that they
are congruent with the updates in the Technical Manual. (B.1.c)


                                               2




                                                          63
                                                                                                       Final Report 

                                                                                                        Reference





SFAE-SDR
SUBJECT: Response to the Department of Defense Inspector General (000 IG) Report
-Army's Management of the Operations and Support Phase of the Acquisition Process for Body
Annor: No. D2oo9-DOOOJA-0106.000, September 29, 2009

     PEa Soldier Response : Concur. PEO Soldier will update Maintenance Advisory Message
09-005 and provide updates to the IOTV and Care Manual and All Army Activities Message
109/2009 to ensure the Enhanced Small Arms Protective Inserts and Enhanced Side Ballistic
Inserts are congruent with the updates in the TM. The estimated completion date to provide
clarifying guidance is 2nd Quarter Fiscal Year (FY) 2010.

     (4) Provide input to Headquarters, Department of the Army. to issue an All Army Activities      Revised


Message that establishes a recurring requirement to return ballistic plates identified in All Army
Activ~ies Message 027/2009. (B.1.d)


     PEa Soldier Response: Concur. PEO Soldier will provide input to Headquarters,
Department of the Army, not later than 15 November 2009, to issue an All Army Activities
Message to establish a recurring requirement to retum ballistic plates identified in All A.rroy
Activities Message 02712009.

     (5) Complete the required testing and analysis of the Non Destructive Testing Equipment
and provide a recommendation to the Headquarters, Department of the Army, on whether the
Army should req uire that ballistic plates be x-rayed. If the Department of the Army determines
that use of the equipment should be a requirement, Program Executive Officer Soldier should
develop guidance including the equipment's capabilities and limitations, and how often and
which ballistic plates should be x-rayed . (B.1.e)
                             Click to add JPEG file
     PEa Soldier Response: Concur. The Army continuously tests and evaluates the
capability of the NDTE. Currently, the NDTE is meeting mission requirements to identify cracks
in the hard ballistic inserts. PEO Soldier will provide a recommendation to Headquarters,
Department of the Army, that all in service ballistic plates should be x-rayed. If the Department
of the Army determines that use of the equipment should be a requirement. PEO Soldier will
develop guidance including the equipment's capabilities and limitations , and how often and
which ballistic plates should be x-rayed.

     (6) Develop interim guidance on the Non Destructive Testing Equipment limitations and
capabilities, including whether automated and visual inspections are required , until the
acquisition strategy and supplemental documentation is published and approved . (B.1.f)

      PEO Soldier Response: Concur. The Army Test and Evaluation Command issued a
capability and limitations report on 7 May 2009 for the NOTE. As stated in the report, the
-NDTE is capable of evaluating the serviceability of undamaged ballistic plates successfully 99.7
percent of the time, and rejecting damaged ballistic plates 99.9 percent of the time: The
limitation is -the NDTE is not configured to analyze the outer % inch of the plate: PEO Soldier
guidance to the NOTE inspection teams is to use automated and visual inspection in the
evaluation of the ballistic plates. Acquisition documentation for the NDTE is in progress and is
expected to be completed in 4" Quarter Fiscal Year 2010.

  c. Recommendation C.1. We recommend that the Program Executive Officer Soldier
coordinate with the:

    (1) Defense Reutilization and Mal1<eting Service and Organizational Clothing and
Equipment Central Management Office to revise and reissue memorandum, -Disposition

                                                 3




                                                             64
SFAE-SDR
SUBJECT; Response to the Department of Defense Inspector General (000 IG) Report
-Army's Management of the Operations and Support Phase of the AcqulsiUon Process for Body
Armor.· No. D2009-DOOOJA·Ol08.000. September 29. 2009

Instructions for the Unijed States Army Interceptor Body Armor (IBA) Outer Tactical Vests
(OlY). Ballistic Protective Inserts. and Their Components." September 7. 2007. (C.l .a)

      PEa Soldier Response: Concur, PEO Soldier will coordinate with the Defense
Reutilization and Marketing Service and Organizational Clothing and Equipment Central
Management Office to revise and reissue memorandum, "Disposition Instructions for the United
States Army Interceptor Body Armor (I BA) Outer Tactical Vests (OlY). Ballistic Protective
Inserts, and Their Components,· September7. 2007. The estimated completion date for the
revision Is 2'" Quarter FIScal Year (FY) 2010.

     (2) Department of the Army to determine wnether the applicable guidance should be
published as a DOD or Army regulation. (C.l .b)

     PEa Soldier Response: Concur. PEO Soldier will coordinate with the Defense
Reutilization and Marketing Service and Organizational Clothing and Equipment Central
Management Office to determine whether the applicable guidance should be published as a
000 or Army regulation . The estimated completion date for determination of applicable
guidance is 2~ Quarter Fiscal Year (FY) 2010,

4. The PEa Soldier Team Is focused on the protection of our deployed Soldiers,              In
Iraq and Afghanistan, We appreciate the opportunity to lmpro'Ye
                            Click to add JPEG file
man,ement of our body armor products thr01hout its life crcle,




                                             0~ PETER N. FULLER
                                                Brigadier General, USA
                                                Program Executive Officer Soldier




                                               4




                                                         65
Adjutant General of the U.S. Army Comments

                                                                                                  Final Report
                                                                                                   Reference




                                   OEPARTMENT OF THE ARMY
                                 U,S. AR.M Y HUMAN RESOURCES COMMAND
                                         200 STOVALL STREET
                                       ALEXANDRIA VA 22331-0482




      AHRC-PDC-P                                                            30 September 2009   Revised and
                                                                                                renumbered as
      MEMORANDUM FOR Program Director, Joint and Southwest Asia Operations,
                                                                                                Recommendation
      Department of Defense Inspector General, 400 Army Navy Dive, A~ing to n , Virginia        A.4.
      22202-4704

      SUBJECT: Statement of Compliance with DoD IG's Recommendation on Body Armor               Two pages of
      Cleaning Instructions.
                                                                                                supporting
                                                                                                documentation
      1, On 27 August 2009, DoD IG recommended changes to current Body Armor cleaning           were omitted
      procedures found during a routine inspection at the Joint Personal Effects Depot          because of length.
      (JPED), Aberdee n Proving Grounds, Maryland ,                                             Copies will be
      2. Upon receipt of the IG recommendation to hand wash body armor in lukewarm water        provided upon
      with a mild detergent, changes were Immediately implemented and Standard Operating        request.
                                Click to add JPEG file
      Procedure (SOP) updated to comply (enclosed).




      Enel
                                                (£~,
      SOP Excerpt                                 Brigadier General , USA
                                                  The Adjutant Generat




                                                                  66
      P. 	 UJX>n completion the oontailler i:s I"'jp tied. fo r :security pwpo:ses:. The shipment is than
           assigned Wld forwarded to the SCMOlFinal-lnventory Area.

    8-6. TA-50, 782 Gear Laundering Procedures
      A. 	TA~50 or 782 Gear is inspected and re~inspected for biohazard, soiled, damaged
           or tom, prior to fo rwarding to Supply Area.
      B. 	 TA-50 or 782 Gear will be cleaned for tum·in to the Supply Area for final disposition.
      C. 	 Team members must inspect and re-inspcct all pockets and pouches for unaccounted
           items prior to beginning cleaning. Items found must be documented on a discrepancy
           form.
      D. 	Prepare items for cleaning with the most appropriate method for its type so as not to
           accidenUy damage or otherwise alter original condition.
      E. 	 Items that cannot be laundered due to its manufactu ring guidel ines are carefully.
           but diligently wiped down with the appropriate cleaning solutions.
      F. 	 TA-50 will be inventoried. cleaned and returned to the original box in which it
           was received before be ing taken to supply.

(j;Js-7.Improved Outer Tactical Vests (I0TV) Specialty Defense Systems 7.1
      A. 	 Do not machine wash or dry. Failure to follow these instructions may destroy the vest.
      B. 	 Remove dirt from outer surface using a cloth or soft bristle brush.
      C. 	 Remove all balli ~1ic inserts and the ESAPIlESBI from the orrv outer-shell and the
                                 Click to add JPEG file
           component carriers. Soft ballistic inserts are cleaned only by f(,'ITloving lose dirt from
           the surface with a cloth or soft bmsh. Do not submerge the in~ert.s in any liquid; do not
           bleach; do not macbinc wash; do not dry clean; do not apply solvents to the ballistic
           inserts. lfballistic inserts become wet, allow to air dry in a flat position away from
           heat sources and direct sunlight. lfballi stic insert becomes saturated with liquids such
           as gasoline, bleach or other lubricants, tum in for replacement as soon as possible.
      D. 	Hand wash IOTV outer-she)! and component carrier cover.; only in cold or warm
           water. with mild detergent or soap. Do not use chJorinc bleach. yellow soap, cleaning
           fluids, or so lvents that will discolor/deteriorate tile item.
      E. 	 Rinse the outer-shell and covers thoroughly in clean warm water.
      F. 	 Air dry indoors or in shade, away from heat sources.
      G. 	 Do not attempt to dye item or fix discolor.llions


       Note:
          Under no circumstances should combat boots and casual/dress shoes be placed in
          washer. These items will be hand wao;hed using waITn soapy water and then placed in
          drycr on rack. Military patches will be placed in mesh bag when laundered and dried.
          Berets will be hand washed to prevent shrinkage. Large mgs will be vacuumed outside
          of building in designated areas. White clothing will be washed separately [0 prevent
          cross coloring and bleach will used when deemed necessary.




                                                                    67
Defense Reutilization and Marketing Service Comments






                                                 {I, t-L   1,J~t   LO(.lhfl( 5 1\1 I·N{. 't
                                      rll! IN'41 Hfllllll"A'lo~J!\NI1MAH;'\:L IINI              .ll1vl·
                                           Ilrrr IJr;r I IlGH. nc.:. INr"OHMI\flol"I !.r HVI\.
                                                  NJ WAS H ING rrlN A\lt NUt NOH I H
                                                 !.:SAl I L.t': CRElt\. M!I~!t(~AN 4'IV "I

     tlErl.'/
    PI'I'"f"n TO   DRMS-O
                                                                                                                     OCT I   a 11109

                   MEMORANDUM FOR IIQ DLA 1-3/4


                   SUBJECT: Oran OIG Repnrt, "Army's Management of the Operations and Support Phase oftlle
                            Acquisition Procoss for Aody Arll1or," September 29.2009 (Project D2009-DOOOJA-
                               0106.000)


                           The subjeci Olu report reques!ed l)RMS commcn!s in response to recommendations (;.1
                   and C. 2:

                             Regarding. recommcndation C.I.n: DRMS will coord iJintc with the Army to revise
                   mCIIlOrBlldtml  "Disposition Insl rllelions for the United Sinles Anny Interceptor Body Armor Ollter
                   Tactical Vesls.lJallistic Proh.'clive Inserts. and Their Components." dated Septcmber 7. 2007. We
                   be lieve the guidulIce should incorporate Ihc DOD 10 statements fOllnd in st:ctioll C of the report,
                   specificnlly, "Tn prcvent further waste and mismanagcmcnt, the ArIllY should also consider
                                               Click to add JPEG file
                   dcsigmlling and rcquiring 81\ authorized Government official to conduct a physical inspection and
                   provide di sposition instructiolls subsequcnt to DRMS officia ls conducting their initia l inspections
                   and notifying OClli CMO officials. IfORMS officials identify poten!il\l!y scrviceable Interceptor
                   Uody Annor (mA) components, !he Government offic ioI could provide further disposition
                   instructions. depcnding all tho compollelll .....

                            DRMS concurs with recommendation C.2a and will revise the Oemil Bullelin for Body
                   All1lor once the guidance refcrenccd in recommcndalion C. I is received from the Anny.

                            DRMS also concurs with Recommendation C.2.b. However, we Slress our coneem about the
                   ability ofDRMO employecN to determinc the prol>cr condition code for cquipllllmt IhRt requires
                   specialized testing such as InA. For IBA, we will coordinate with PEO Soldier on the criteria
                   eMahli~ hed in recommendnlion C. I. to dClcnnine which material should be referred to their office
                   and which m(l[eria l should be processed for destruction, For non-technical items such as vests, we
                   will stress to our field sites the requirements of the Defense Materiel Disposition Mnuual (DOn
                   4160,2 t-M) Rnd Ihe DRMS-111160.14 to ehnllcngc condition codes if they "ppc"r ill errQr.




                                                                      -  I)•.. '/tl (!. o<~~
                                                                      'TWli':'" c. GONZALEUES
                                                                          Director



                                                                                              ,- ,




                                                                                     68
